<html>
<title> - RENEWING AMERICA THROUGH NATIONAL SERVICE AND VOLUNTEERISM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
       RENEWING AMERICA THROUGH NATIONAL SERVICE AND VOLUNTEERISM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 25, 2009

                               __________

                            Serial No. 111-4

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                   U.S. GOVERNMENT PRINTING OFFICE
47-492 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 25, 2009................................     1

Statement of Members:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut, submission for the record:
        Golden, Christopher P., Service Nation 100 ``Young 
          Leaders,'' co-founder, myImpact........................    56
    Honojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas, submission for the record:
        Firman, James P., Ed.D, president and CEO, National 
          Council on Aging.......................................    55
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     5
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Caprara, David L., director and nonresident fellow, Brookings 
      Initiative on International Volunteering and Service.......    36
        Prepared statement of....................................    38
    Dorsey, Cheryl L., M.D., M.P.P., president, Echoing Green....    24
        Prepared statement of....................................    26
    Hamilton, Lisa, president, UPS Foundation....................    41
        Prepared statement of....................................    42
    Harris, James, youth participant, Usher's New Look Foundation    22
        Prepared statement of....................................    23
    Jones, Van, founder and president, Green for All.............    27
        Prepared statement of....................................    29
    Preston, Kenneth O., Sergeant Major of the U.S. Army.........    33
        Prepared statement of....................................    35
    Raymond, Usher IV, recording artist, chairman, Usher's New 
      Look Foundation............................................    18
        Prepared statement of....................................    20
    Stengel, Richard, managing editor, TIME Magazine.............     9
        Prepared statement of....................................    12
    Wofford, Hon. Harris, former U.S. States Senator.............    13
        Prepared statement of....................................    15
        Letter, dated February 25, 2009, from Age for Change 
          Network................................................    57


       RENEWING AMERICA THROUGH NATIONAL SERVICE AND VOLUNTEERISM

                              ----------                              


                      Wednesday, February 25, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:07 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Woolsey, McCarthy, Tierney, Kucinich, Davis, Bishop of New 
York, Sestak, Loebsack, Hare, Shea-Porter, Polis, Tonko, 
Pierluisi, McKeon, Petri, Castle, Roe, and Thompson.
    Staff present: Tylease Alli, Hearing Clerk; Alejandra Ceja, 
Senior Budget/Appropriations Advisor; Nina DeJong, 
Investigative Associate; Adrienne Dunbar, Education Policy 
Advisor; Sarah Dyson, Policy Assistant; Curtis Ellis, 
Legislative Fellow, Education; Carlos Fenwick, Policy Advisor, 
Subcommittee on Health, Employment, Labor and Pensions; Denise 
Forte, Director of Education Policy; Liz Hollis, Special 
Assistant to Staff Director/Deputy Staff Director; Fred Jones, 
Staff Assistant, Education; Jessica Kahanek, Press Assistant; 
Julia Martin, Education Policy Advisor; Stephanie Moore, 
General Counsel; Alex Nock, Deputy Staff Director; Joe Novotny, 
Chief Clerk; Lisa Pugh, Legislative Fellow, Education; Rachel 
Racusen, Communications Director; Meredith Regine, Junior 
Legislative Associate, Labor; Melissa Salmanowitz, Press 
Secretary; Margaret Young, Staff Assistant, Education; Kim 
Zarish-Becknell, Policy Advisor, Subcommittee on Healthy 
Families and Communities; Mark Zuckerman, Staff Director; 
Stephanie Arras, Minority Legislative Assistant; James 
Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Cameron Coursen, Minority Assistant 
Communications Director; Amy Raaf Jones, Minority Professional 
Staff Member; Alexa Marrero, Minority Communications Director; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order for the purposes of discussing 
volunteerism, public service to America.
    And I want to begin by thanking all of our witnesses for 
joining us, for their time and their expertise. And we 
appreciate you making that effort.
    I am going to recognize myself for the purposes of making 
an opening statement, then I will recognize Congressman McKeon 
for an opening statement, and then we will turn to our 
witnesses.
    I want to welcome everyone to today's hearing on how 
service and volunteerism can help us build a stronger, vibrant 
America.
    We are at a critical moment in our nation's history. With 
our nation being tested by unprecedented challenges--an 
economic crisis, an energy crisis, struggling schools and 
more--our public needs are greater than ever.
    These tests also present an enormous opportunity to make 
America part of the solution by tapping into their patriotic 
spirit and a desire to serve.
    Service has been a key part of America's story since 1961, 
when President John F. Kennedy took the challenge to a 
generation to ask ``not what your country can do for you'' but 
``what you can do for your country.'' He inspired millions of 
Americans to make a difference at home and around the globe by 
establishing the Peace Corps, Volunteers in Service to America 
programs.
    In the 50 years since, hundreds of millions of Americans 
have helped build a powerful legacy. In 2008, over 61 million 
adults volunteered. From 2002 to 2007, the number of volunteers 
across the country grew by more than a million, according to 
the Corporation for National and Community Service.
    There are many ways to serve, from nonprofit community 
organizations to the military to public service. According to 
the Partnership for Public Service, the federal government 
currently needs to fill thousands of service jobs in critical 
fields, including medicine, public health, foreign languages, 
and information technology. And for many Americans, military 
service has opened new doors to careers in addition to serving 
the country during times of war and peace.
    As many of you know, we have a new President who has a 
personal interest in service. President Obama began his career 
by volunteering on the South Side of Chicago. And last night, I 
was gratified to hear him make national service a key part of 
his bold agenda to revive and rebuild our country.
    To help get more students to college, he proposed making 
college more affordable for Americans who serve or volunteer. 
He called for Congress to take urgent, bipartisan action to 
launch a new era of American service for the current and future 
generations, making it clear that improving service must be one 
of the next actions we take to help lift our economy out of 
this crisis.
    I look forward to working with all members of this 
committee to deliver him this legislation as quickly as 
possible.
    The economic recovery plan he enacted was a good first step 
toward rebuilding our service capacity. It invests $200 million 
in as many as 13,000 new service opportunities with AmeriCorps, 
one of the several programs we will hear about from today's 
witnesses. AmeriCorps, along with VISTA, Senior Corps, Learn 
and Serve America, and others, has become a successful model 
for public and private partnerships.
    In neighborhoods across the country, these programs are 
integral partners with business and local government, helping 
meet vital needs from mentoring programs for children of 
prisoners--to feeding the hungry--to providing independent 
living services to seniors.
    These programs yield proven, measurable benefits. They can 
foster inspiration, teach valuable skills, and prepare 
Americans for jobs. They also provide resources needed to 
tackle the great challenges, like improving student achievement 
or rebuilding cities in time of disaster.
    For example, in Harlem, Brian McClendon has volunteered 
with the Harlem Children's Zone for 12 years, in an AmeriCorps 
program that helps improve the quality of life for children and 
adults in some of New York City's most impoverished 
neighborhoods. The program not only provided McClendon with a 
job, but it also helped him stay away from the other challenges 
of the neighborhood while he was growing up in Harlem
    In Jacksonville, Florida, Thelma ``Granny'' King, a retired 
registered nurse, helps emotionally and academically challenged 
inner-city students through SeniorCorps. She uses auditory, 
cognitive and kinesthetic skill-building activities to help 
students with no linguistic ability to learn to communicate 
using their bodies. Her success with these children has helped 
her raise their graduation rates by 82 percent.
    I have seen similar benefits in my district, where I love 
to walk the trails that are managed by the California 
Association of Local Conservation Corps, an AmeriCorps program 
that engages disadvantaged youth in rebuilding parks and trails 
and encourages them to become stewards of the environment. The 
young people involved in this program often come from 
challenging communities, and they have every obstacle in their 
way and every odd working against them. And yet this program is 
making a real difference in their lives and to our society, 
providing a sense of ownership, confidence and purpose while 
introducing them into green jobs for the future. We need more 
programs like this.
    Today we will hear from witnesses from across the service 
spectrum about the innovative approaches to engage youth and 
older Americans in green jobs and other service opportunities. 
They will share their perspectives on the power of service in 
changing communities and how we can leverage these 
opportunities to move forward.
    And they will help inform our efforts as we start working 
immediately, in a bipartisan basis here in this community and 
with the Obama administration, to deliver the president a 
bipartisan legislation that reinvigorates America's spirit of 
national service.
    And now I would like to recognize my colleague, Congressman 
McKeon from California, who is the senior Republican on the 
Education and Labor Committee, for the purposes of an opening 
statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    I'd like to welcome everyone to today's hearing on how service and 
volunteerism can help us build a stronger, vibrant America.
    We are at a critical moment in our nation's history. With our 
nation being tested by unprecedented challenges--the economic crisis, 
the energy crisis, struggling schools and more--our public needs are 
greater than ever.
    These tests also present an enormous opportunity to make Americans 
a part of the solution by tapping into their patriotic spirit and 
desire to serve.
    Service has been a key part of America's story since 1961, when 
President John F. Kennedy first challenged a generation of Americans to 
ask ``not what your country can do for you--ask what you can do for 
your country.''
    He inspired millions of Americans to make a difference at home and 
around the globe by establishing the Peace Corps and Volunteers in 
Service to America programs.
    In the fifty years since, hundreds of millions of Americans have 
helped build a powerful legacy.
    In 2008, over 61 million adults volunteered. From 2002 to 2007, the 
number of volunteers across the country grew by more than a million, 
according to the Corporation for National and Community Service.
    There are many ways to serve--from nonprofit and community 
organizations to the military to public service. According to the 
Partnership for Public Service, the federal government currently needs 
to fill thousands of service jobs in critical fields, including 
medicine, public health, foreign languages, and information technology.
    And, for many Americans, military service has opened new doors to 
careers in addition to serving the country during times of war and 
peace.
    As many of you know, we have a new President who has a personal 
interest in service: President Obama began his career by volunteering 
in the South Side of Chicago.
    Last night, I was gratified to hear him make national service a key 
part of his bold agenda to revive and rebuild our country. To help get 
more students to college, he proposed making college more affordable 
for Americans who serve or volunteer.
    He called for Congress to take urgent, bipartisan action to launch 
a new era of American service for current and future generations--
making it clear that improving service must be one of the next actions 
we take to help lift our economy out of this crisis. I look forward to 
working with all members of this committee to deliver him this 
legislation as quickly as possible.
    The economic recovery plan he enacted was a good first step toward 
rebuilding our service capacity.
    It invests $200 million to create as many as 13,000 new service 
opportunities with AmeriCorps--one of several programs we'll hear about 
from today's witnesses.
    AmeriCorps, along with VISTA, Senior Corps, Learn and Serve 
America, and others, has become a successful model of public and 
private partnerships.
    In neighborhoods across the country these programs are integral 
partners with business and local government, helping meet vital needs 
from mentoring programs for children of prisoners to feeding the hungry 
to providing independent living services to seniors.
    These programs yield proven, measurable benefits. They can foster 
inspiration, teach valuable skills, and prepare Americans for jobs. 
They also provide the resources needed to tackle great challenges--like 
improving student achievement or rebuilding cities in times of 
disaster. For example:
    <bullet> In Harlem, Brian McClendon has volunteered with Children's 
Zone for 12 years, an AmeriCorps program that helps improve the quality 
of life for children and adults in some of New York City's most 
impoverished neighborhoods.
    <bullet> The program not only provided McClendon with a job--but 
also helped him stay away from drugs, gangs and violence while growing 
up in Harlem.
    <bullet> In Jacksonville, Florida, Thelma ``Granny'' King, a 
retired registered nurse, helps emotionally and academically challenged 
inner-city students through SeniorCorps. She uses auditory, cognitive 
and kinesthetic skill-building activities to help students with no 
linguistic ability learn to communicate using their bodies.
    Her success with these children has helped raise their graduation 
rates by 82 percent.
    I've seen similar benefits in my district, where I love walking 
trails that are managed by the California Association of Local 
Conservation Corps--an AmeriCorps program that engages disadvantaged 
youth in rebuilding parks and trails and encourages them to become 
stewards of the environment.
    The young people involved in this program often come from 
challenging communities. They have every obstacle in their way and 
every odd working against them.
    And yet, this program is making a real difference in their lives--
providing a sense of ownership, confidence and purpose while 
introducing them to the green jobs of the future.
    We need more programs like this.
    Today we'll hear from witnesses from across the service spectrum 
about innovative approaches to engage youth and older Americans in 
green jobs and other service opportunities.
    They'll share their perspective on the power of service in changing 
communities and how we can leverage these opportunities as we move 
forward.
    And they will help inform our efforts as we start working 
immediately, in a bipartisan basis here in this committee and with the 
Obama administration, to deliver the President bipartisan legislation 
that reinvigorates America's spirit of national service.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller.
    And good morning. It is great to be here with such a 
dynamic panel of witnesses who make volunteerism cool.
    I am a long-time supporter of volunteerism, whether it is 
something we do as individuals and families in our own 
communities or something we do as citizens coordinated at the 
national level. Volunteerism is a hallmark of what makes 
America great. Volunteering our time and our talents is a way 
that all Americans can give back.
    We all have something to contribute no matter where we are 
from, how much money we earn, or what we do for a living. 
Millions of Americans volunteer in their communities from 
serving meals to those who are hungry, to mentoring 
underprivileged children. Much of this work is done 
independently without an infrastructure or a program to 
coordinate the work. People just roll up their sleeves and give 
where they can.
    Many other Americans have gotten involved with private 
philanthropy. For instance, some of our witnesses today have 
created and immersed themselves in private volunteering 
initiatives to bring individuals together to serve as a group.
    Hearings like this one give us an opportunity to shine a 
spotlight on the organizations that are doing things all on 
their own to promote volunteerism and service, whether it is 
within a corporation or an entire industry.
    I also think it is important to hear what a wide and 
diverse range of groups can do to promote service. For that 
reason, I am pleased to have an expert here to discuss the 
important role faith-based organizations play in getting 
Americans involved in helping their communities.
    In addition to the work of individuals and private groups, 
many other Americans have chosen to engage in what we call 
``National Service,'' the service programs coordinated on the 
national stage by the Corporation for National and Community 
Service. Approximately 2\1/2\ million Americans engage in 
community service each year through the Corporation's programs, 
which exist in all 50 states and right here in the District of 
Columbia.
    This hearing provides us with a good opportunity to learn 
more about the unique opportunities that exist within the 
national service realm. For instance, I am interested in what 
these programs can do to assist veterans continuing with their 
desire to serve and help the current members of the military 
and their families.
    Later this year, this committee will once again attempt to 
reauthorize national service programs. We can bring these 
programs into the 21st century by ensuring they are targeted, 
effective and efficient. And I look forward to doing that.
    We can also ensure the programs allow the participation of 
smaller organizations, faith-based or otherwise, to 
participate. Many Americans choose to participate through these 
local organizations who really know the needs of the 
communities they serve. I hope we also bear in mind that 
government-coordinated national service is just one segment of 
a much broader system of volunteerism in this country.
    I want to commend our witnesses for their work in the range 
of volunteer strategies. You are giving of yourselves and 
setting an example for others to do the same. And for that I 
want to personally thank you.
    And I want to thank you, Mr. Chairman, for having Sgt. 
Major Preston here from our Army. You know, when we are 
fighting wars on two fronts, and we have an all-volunteer 
service, I really appreciate you having him here at this table. 
And this year, we are especially honoring our noncommissioned 
officers as the Year of the Noncommissioned Officer, so thank 
you for that.
    With that, I yield. We have a full panel of witnesses 
willing to testify, so I will yield back. And thank you.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller, and good morning. It's great to be here 
with such a dynamic panel of witnesses who make volunteerism ``cool.''
    I am a longtime supporter of volunteerism. Whether it's something 
we do as individuals and families in our own communities, or something 
we do as citizens coordinated at the national level, volunteerism is a 
hallmark of what makes America great.
    Volunteering our time and our talents is a way that all Americans 
can give back. We all have something to contribute, no matter where 
we're from, how much money we earn, or what we do for a living.
    Millions of Americans volunteer in their communities, from serving 
meals to those who are hungry to mentoring underprivileged children. 
Much of this work is done independently, without an infrastructure or a 
program to coordinate the work. People just roll up their sleeves and 
give where they can.
    Many other Americans have gotten involved with private 
philanthropy. For instance, some of our witnesses today have created 
and immersed themselves in private volunteering initiatives that bring 
individuals together to serve as a group. Hearings like this one give 
us an opportunity to shine a spotlight on the organizations that are 
doing things all on their own to promote volunteerism and service, 
whether it's within a corporation or an entire industry. I also think 
it's important to hear what a wide and diverse range of groups can do 
to promote service. For that reason, I am pleased to have an expert 
here to discuss the important role faith-based organizations play in 
getting Americans involved in helping their communities.
    And in addition to the work of individuals and private groups, many 
other Americans have chosen to engage in what we call ``national 
service,'' the service programs coordinated on the national stage by 
the Corporation for National and Community Service. Approximately 2.5 
million Americans engage in community service each year through the 
Corporation's programs, which exist in all 50 states and right here in 
the District of Columbia. This hearing provides us with a good 
opportunity to learn more about the unique opportunities that exist 
within the national service realm. For instance, I'm interested in what 
these programs can do to assist veterans continuing with their desire 
to serve and to help the current members of the military and their 
families.
    Later this year, this committee will once again attempt to 
reauthorize national service programs. We can bring these programs into 
the 21st century by ensuring they are targeted, effective, and 
efficient, and I look forward to doing that. We can also ensure that 
programs allow the participation of smaller organizations--faith-based 
or otherwise--to participate. Many Americans choose to participate 
through these local organizations who really know the needs of the 
communities they serve.
    I hope we also bear in mind that government-coordinated national 
service is just one segment of a much broader system of volunteerism in 
this country. I want to commend our witnesses for their work in the 
range of volunteer strategies. You are giving of yourselves, and 
setting an example for others to do the same. And for that, I want to 
personally thank you.
    With that, we have a full panel of witnesses waiting to testify, so 
I will yield back. Thank you.
                                 ______
                                 
    Chairman Miller. Thank you very much. And thank you for 
recognizing Sgt. Major Preston.
    I think those of us who have visited our troops in Iraq and 
Afghanistan and else in the world recognize that our soldiers 
are returning home with a set of skills that they probably 
never imagined that they were going to acquire as they work in 
communities all over those countries--in urban settings and as 
isolated and a rural setting as you can possibly be in 
Afghanistan--and working with people to build communities, to 
build schools, to build relationships.
    And it is rather remarkable, and we would be remiss if we 
did not figure out how to provide the opportunities for them 
when they return to America to use those magnificent assets.
    I am going to--first of all, members of the committee may 
submit opening statements that will be made part of the 
permanent record. And I will give a brief introduction of our 
witnesses, and their longer bios will be included in the record 
of the committee.
    And I will begin with Richard Stengel, who will be our 
first witness, is the managing editor of Time, the world's 
largest weekly news magazine. Mr. Stengel collaborated with 
Nelson Mandela on his autobiography, Long Walk to Freedom, 
later coproducing the documentary Mandela. In 2008, he 
coordinated the Service Nation Presidential Candidates Forum, 
where he interviewed the candidates about the views on national 
service. Mr. Stengel currently is a board of trustees and 
member of City Year, a lead partner in the Service Nation 
coalition.
    Senator Harris Wofford served the Commonwealth of 
Pennsylvania from 1991-1994, after which he was appointed CEO 
of the Corporation for National and Community Service by 
President Clinton. Senator Wofford is on the board of America's 
Promise, Youth Service of America and the Points of Light 
Institute. He also is spokesperson for Experience Wave, an 
organization that seeks to develop public service opportunities 
for older citizens.
    Usher Raymond, IV is the renowned recording artist and 
founder of Usher's New Look charity, a nonprofit organization 
designed to teach youth about sports and entertainment 
industries. Since then, it has mentored over 1,300 youth, with 
many of its campers going on to the Mogul VIP program where 
they explore career paths via internships and mentoring. Usher 
received the key to the city of New Orleans in 2008 for his 
commitment to rebuilding the Gulf Coast. His Restart concept 
helped more than 750 families establish housing through renting 
utility assistance while providing more than 1,200 youth and 
families with clothing and food.
    James Harris is a former Camp New Look participant, where 
in 2007 he received the designation of Star Camper. He also was 
a Mogul VIP participant and is currently a student at Johnson 
Community College with plans to major in Business 
Administration and Entrepreneurship. Mr. Harris is a 19-year-
old aspiring rapper, entrepreneur, philanthropist, politician, 
expert witness and everything else, apparently. [Laughter.]
    There is a man with a vision and a set of goals. Welcome to 
the committee.
    Dr. Cheryl L. Dorsey is the president of Echoing Green, a 
global nonprofit which has awarded millions in startup capital 
to social entrepreneurs worldwide since 1987. While studying at 
Harvard Medical School, Ms. Dorsey used her own Echoing Green 
fellowship award to establish Family Van, a community mobile-
based health unit designed to provide outreach and health care 
service. Ms. Dorsey has received numerous awards and honors for 
her commitment to public service including the Pfizer Roerig 
History of Medicine Award and the Robert Kennedy Distinguished 
Public Service Award.
    Van Jones is the founding president of Green For All, a 
U.S. organization that promotes opportunities for the 
disadvantaged and green-collar jobs. Green For All seeks to 
build an inclusive green economy that will alleviate poverty 
and ecological crises. Mr. Jones is Time Magazine 2008 
Environmental Hero, one of Fast Company's 12 Most Creative 
Minds in 2008, and the New York Times bestselling author of The 
Green Collar Economy: How One Solution Can Solve Our Two 
Biggest Problems. He is a 1993 Yale Law School graduate and 
senior fellow at the Center for American Progress.
    Sgt. Major of the Army Kenneth O. Preston is the thirteenth 
sergeant major of the Army, where he serves as personnel 
advisor to the Army's chief of staff, primarily in the areas 
regarding soldier training and quality of life. During his 28-
year career, he has served in many fields including, and most 
recently, in Iraq. He has been awarded many decorations 
including two Legions of Merit, the Bronze Star Medal, the 
Defense Meritorious Service Medal, four Army Meritorious 
Service Medals, five Army Commendation Medals, three Army 
Achievement Medals, Southwest Asia Service Ribbon, Liberation 
of Kuwait Ribbon, and a Kosovo Medal, and a NATO Medal and 
Joint Meritorious Unit Award. [Applause.]
    Wow. And a Congressional Hearing Medal. [Laughter.]
    Thank you. Thank you. That is magnificent.
    David L. Caprara is the director and nonresident fellow at 
the Brookings Institute on International Volunteering and 
Service and executive vice-president of Youth Federation for 
World Peace. Formerly, he directed faith-based and community 
initiatives for the Corporation of National Community Service 
and Volunteers in Service to America known as VISTA.
    He has co-directed several international discussions on 
service including the International Roundtable on Volunteering 
and Service and the International Conference on Faith and 
Service. He has also worked extensively with government, 
serving the Department of Housing and Urban Development, the 
Virginia Governor's Commission on Citizen Empowerment, and the 
White House Task Force on Disadvantaged Youth.
    Lisa Hamilton is president of the UPS Foundation, managing 
volunteer programs, grants, education initiatives and other 
philanthropic partnerships. She has joined UPS as a tax 
research and planning manager in 2006 and has also worked as a 
program manager for the foundation. Ms. Hamilton serves on a 
number of boards including the Annie E. Casey Foundation, 
Boston College Center on Corporate Citizenship, the U.S. 
Chamber of Commerce Business and Civic Leadership Center and 
the Atlanta Education Fund.
    And Mr. Castle is recognized.
    Mr. Castle. Thank you, Mr. Chairman.
    While not a speaker here, I would like to introduce 
somebody, a young lady from Wilmington, Delaware, Amy Liu, who 
is at our hearing. She is a Prudential Spirit Community 
Volunteer of the Year winner of 2009 for Delaware. She is 
serving the nation in many ways, which is the focus of today's 
hearing. And at the age of 17, she is very familiar with that 
kind of service.
    In May of 2008, she established a Szechwan earthquake 
relief fund that successfully raised more than $43,000 to aid 
victims of the disaster in South Central China. It is truly an 
honor that this accomplished young woman and her father were 
able to join us for today's hearing.
    Nearly 20,000 young people across the country were 
considered for this award, and she is the winner. We are 
delighted to have Amy here. The other winner from Delaware, 
Madison Dodge, was invited today but was unable to attend, 
unfortunately. But Amy Liu represents all that is good about 
the young people of America.
    Chairman Miller. Where is Amy?
    Mr. Castle. Thank you, Amy, for being here. [Applause.]
    Chairman Miller. Thank you. Amy, thank you so much for your 
service.
    I would also like to recognize, before we turn to Richard 
the chairman of the board for the Corporation for National and 
Community Service, Alan Solomont.
    Alan? Alan, please stand. [Applause.]
    And the acting CEO, Nicky Goren. Nicky, where are you? 
[Applause.]
    Thank you.
    Richard, we are going to turn to you. When you begin to 
speak, a green light will go on. You will be given 5 minutes. 
Your written statement, which I know is much longer, will be 
placed in the record of the hearing in its entirety. And you 
proceed in a manner in which you are most comfortable. At about 
4 minutes, an orange light will go on, and we would like you to 
think about wrapping up your thoughts. But we want you to do it 
in the manner that is comfortable to you and coherent to us. 
And then eventually you will see a red light--you are out.
    Welcome to the committee, and thank you again for taking 
your time to be with us.

  STATEMENT OF RICHARD STENGEL, MANAGING EDITOR, TIME MAGAZINE

    Mr. Stengel. Actually, my contribution to national service 
will be keeping my statement very short.
    I want to thank you Chairman Miller and Ranking Member 
McKeon for convening this important and timely hearing. It is 
particularly timely, as we saw last night President Obama kick-
started the national service movement, something that he has 
been dedicated to since he was a candidate. And I am delighted 
to be here and honored to be here as well. Thank you for 
convening this important hearing.
    I was tasked with giving a kind of overview and history of 
national service, so I went back to the very, very beginning. 
And that was 1787, the very hot summer in Philadelphia when the 
framers were convening, writing the Constitution. And when they 
emerged after about 3 months, Benjamin Franklin stepped outside 
the hall, and a woman came up to him and said, ``Dr. Franklin, 
what hath thee wrought?'' And he said, ``A republic, madam, if 
you can keep it.''
    And it is a famous statement, and what he meant was is that 
the framers were not actually very optimistic about keeping a 
republic, keeping it going. And what they meant was that it 
wasn't a machine that would go of itself, and a republic 
depended on civic participation, the participation of people in 
a democracy. That for a republic to work and a democracy to 
work, everybody had to participate. So national service is in 
our DNA as a republic.
    By the way, let the record show that my neighbor, Harris 
Wofford, was not at the Constitutional Convention. [Laughter.]
    However, he is a true founder of the national service 
movement.
    And you are one of the great men in this movement, and I 
look forward to hearing from you in a moment.
    Now, many, many years later now, the two central acts of 
democratic citizenship in our country these days are voting and 
paying taxes. And that is not something that the founders think 
would really be enough to keep a republic going.
    One of the paradoxes right now that we are seeing is that 
there are a lot of people who feel a lack of confidence and a 
lack of belief in our institutions, in government and Congress 
and what have you. Yet, at the same time, volunteerism is at an 
all-time high.
    And it is not really a contradiction, as I see it, because 
people feel like the private space can be a remedy for what 
they see as the flaws in the public space. And what our 
challenge is in the service movement--yours and ours--is to try 
to unite private purpose with public service. And I think the 
moment now is great for that.
    In fact, we are at a unique moment in our history to help 
try to mobilize Americans to do this. We are fighting two wars 
overseas. We are in an unparalleled economic recession. The 
idea, though, for service is that service can actually help 
those areas of the economy where we are most challenged--that 
is education, public health, infrastructure. And through 
national service we can actually be a kind of almost a silver 
bullet to solve some of these problems, the persistent public 
problems in public health and education that haven't been 
remedied by legislation and could actually be remedied by 
service.
    Service, by the way, is not Republican; it is not 
Democratic. It is beyond party. It is something that both 
parties can unite behind, that all Americans can unite behind. 
And at such a difficult time in the economy, what we all have 
to show, what is incumbent upon all of us, is to show that the 
return on investment is very high. And I hope to do that.
    So if we look at the landscape right now, there are 61 
million Americans who volunteered in their communities in 2007. 
That is a million more than in 2002. And they contributed more 
than 8 billion hours of service that was worth more than $158 
billion to America's communities.
    About one-quarter of Americans over the age of 16 
volunteered, about one-third of them, which is the largest 
cohort, in faith-based institutions. And I am not even 
mentioning the military service, which in some ways is the 
noblest service and the oldest service in American history.
    Talking about AmeriCorps, there are 75,000 Americans now 
who are volunteering through AmeriCorps. But 540,000 Americans 
have volunteered through AmeriCorps since it started in 1994. 
And if you do a cost-benefit analysis of AmeriCorps programs, 
one of the conclusions is that for every dollar in investment, 
that results in $1.50-$3.90 in direct, measurable benefits to 
community. I call that a good return on investment.
    I think we are also at an inflection point in America now 
when it comes to service. A lot of people have talked about 
what happened after 9/11, and I think people on both sides of 
the aisle have agreed that there was a spirit in America where 
people felt like they needed to be called on to make 
sacrifices. And we didn't--we sort of missed that moment in 
some ways.
    I think we are at another moment now with a new president, 
with people being involved in the political process in a way 
that we haven't seen almost in our lifetime, that we could 
actually call on people to serve. And I think the economy only 
makes that more imperative that we do that.
    In September of 2007, I wrote a cover story in Time called 
``The Case for National Service.'' By the way, when you are the 
editor of the magazine, you can publish your own cover story. 
[Laughter.]
    That is one advantage. But the idea was that we wanted to, 
as an institution, endorse this idea of national service, that 
I believe in it passionately myself. But I also believe that 
people in the media, which by the way I believe is another form 
of public service, can actually get behind these ideas that 
benefit the country as a whole.
    So I wrote that cover story. There were a bunch of ideas in 
there that have actually been picked up in the Hatch-Kennedy 
bill that was mentioned this morning--things like increasing 
the size of AmeriCorps, the creation of an Education Corps, a 
Green Corps, a Health Corps, and even a National Service 
Academy, and even the idea of making a cabinet-level 
appointment for national service the way, actually, some states 
have done. Governor Schwarzenegger has done that in California. 
You know, the passage of that bill, which I know many of you 
endorse, is something that would be very important to the 
national service movement.
    At Time, we have continued to talk about national service. 
And we sponsored, as you mentioned, along with a great 
organization, Service Nation, a national service summit last 
year where then-candidate Obama and Senator John McCain 
convened for a kind of a truce to talk about national service. 
And it was a symbol of the fact that it is, again, beyond 
party.
    We are again going to do a national service issue this year 
and convene a summit. And I would hope to have ideas and 
suggestions from all of you about how to do that. I think here 
is an example of the way media and government can collaborate 
on something that is in all of our interests as citizens.
    And I just again want to say that I think we are at a 
critical moment for national service. And it can help us solve 
many of the most acute problems that are facing us now as a 
people. Service I don't believe is a luxury. It can help us 
rebuild as a nation, restore confidence, and prepare for the 
future.
    It was Benjamin Franklin who famously said that Americans 
can do well by doing good. And I think that has never been 
truer now when it comes to national service.
    Thank you very much.
    [The statement of Mr. Stengel follows:]

 Prepared Statement of Richard Stengel, Managing Editor, TIME Magazine

    After more than three months of secret negotiations during the 
sweltering summer of 1787, the founding fathers emerged from 
Independence Hall with a Constitution. As Benjamin Franklin stepped 
outside, a society woman accosted him and said, ``Well, Doctor, what 
have we got?'' Franklin replied, ``A republic, madam, if you can keep 
it.''
    A republic, if you can keep it. The Framers were not all that 
optimistic about the future of the republic. They understood that it 
was not a machine that would go of itself. What they knew was that for 
it to work, people had to be involved; they had to be active 
participants in a representative democracy. Otherwise, the republic 
would not keep.
    A half-century later, the great French social scientist Alexis de 
Tocqueville published his book Democracy in America about his year in 
the United States. He famously wrote that ``Americans of all ages, all 
conditions, all minds constantly unite.'' He saw thousands of 
associations of ordinary people coming together to build hospitals and 
churches and schools. ``Everywhere,'' he wrote, that there is ``a new 
undertaking, you see the government in France and a great lord in 
England, count on it that you will perceive an association in the 
United States.'' America was something new under the sun. In the Old 
World, there was no such thing as volunteering--everything was done by 
the monarchy, the aristocracy or the state. America basically invented 
democratic volunteerism and national service. Service is in our DNA as 
a nation and as a people.
    These days, the two central acts of democratic citizenship are 
voting and paying taxes. But from the standpoint of the Founders and 
Mr. de Tocqueville, that is far from enough. For a while now, we have 
seen confidence in our institutions at all-time lows, but volunteerism 
and civic participation at modern highs. This would seem to be a 
contradiction, but it is not. People, especially young people, feel 
that the public sphere may be broken but that they can personally make 
a difference through community service. The challenge is to try to 
unite private and public purpose.
    Today, we are at a unique moment in our history when we have an 
opportunity to mobilize Americans to help address critical issues 
facing our republic. We are fighting two wars overseas, and we are in 
the midst of an unparalleled economic recession. The parts of our 
economy that have the greatest need are the sectors that benefit most 
from service: education, public health and infrastructure. One way to 
keep the republic at such a difficult time is through universal 
national service--civilian and military. Whether that means addressing 
the high school dropout crisis or solving persistent public-health 
problems, national service is a kind of silver bullet that will help 
address our most intractable problems. It is neither Republican nor 
Democratic--it is beyond partisanship. And it is critical to show that 
when it comes to national service, the return on investment is high and 
measurable.
    Let's look at the landscape now. Nearly 61 million Americans 
volunteered in their communities in 2007, giving more than 8 billion 
hours of service worth more than $158 billion to America's communities. 
More than a quarter of Americans over the age of 16 volunteered in some 
way. There were one million more volunteers in 2007 than in 2002. More 
than a third of volunteers served through religious organizations. 
75,000 Americans are serving through AmeriCorps this year, and more 
than 540,000 have served in AmeriCorps programs since 1994. A cost-
benefit analysis of AmeriCorps programs has concluded that every $1 in 
investment results in $1.50 to $3.90 of direct measurable benefits to 
the community: children tutored, playgrounds built, homeless people 
fed. AmeriCorp volunteers mentored more than 210,000 children and youth 
last year.
    It seems that America is at an inflection point when it comes to 
service. At this very moment, Americans are stepping forward in record 
numbers to serve. Applications for many national-service programs are 
three times what they were last year. Whether this is because of the 
economic downturn or record levels of voter involvement during the 
election cycle, we don't know. Probably both. After 9/11, there was a 
desire to serve and sacrifice that was never really fulfilled. Last 
year, there was a national feeling that involvement in politics and 
government was a way to make a difference. Whether it is the turn in 
the economy or how people have been turned on by politics, we should 
grab the opportunity to get even more people involved.
    In September of 2007, I wrote a cover story for TIME called ``The 
Case for National Service.'' In that story, we advocated a ten-point 
plan for universal national service that included a national-service 
baby bond, the creation of a Cabinet-level department of national 
service, the expansion of AmeriCorps, the creation of an Education 
Corps, a Green Corps and a Health Corps, and the creation of a National 
Service Academy. We hoped that someday the most common question young 
Americans would ask one another would be, ``Where did you do your 
service?''
    The cover sparked an enormous amount of attention both nationally 
and in the service world. A number of the ideas in the cover story have 
been incorporated into the Serve America Act, a comprehensive service 
bill that has been introduced by Senators Kennedy and Hatch. There are 
many innovative ideas in that bill, and we believe that legislation is 
necessary to make it easier for nonprofits to run national-service 
programs. Congress should focus on competition, quality, transparency 
and accountability for those organizations. We've continued to talk 
about national service, and our efforts have included sponsoring, along 
with Service Nation, a national-service summit last year during the 
presidential campaign in which candidates Obama and McCain discussed 
service for 90 minutes on national television. Our issue last year, 
``21 Ways to Fix Up America,'' had pieces from Colin Powell, Arnold 
Schwarzenegger, Miley Cyrus, John DiIulio, John McCain and Barack 
Obama. This is a subject I'm passionate about, and I've had great 
support from the business side of TIME. Time Inc. has been at the 
forefront of the corporate service movement, and Time Warner, our 
parent company, has a proud tradition of civic leadership. TIME, Time 
Inc. and Time Warner employees engage in civic work throughout America 
and the world. At TIME, we're committed to continuing this call for 
service, and we'll do another special issue this September. I believe 
the media can play an important role in stimulating civic engagement, 
and I welcome your ideas and suggestions on what we might feature this 
year.
    America is at a critical moment right now where national service 
can help us solve many of our most acute national problems. At a time 
like this, service is not a luxury but an effort that can help us 
rebuild, restore confidence and prepare for the future. It was Ben 
Franklin who first said that as Americans, we can do well by doing 
good--that has never been truer than it is right now. Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Senator Wofford?

  STATEMENT OF HON. HARRIS WOFFORD, SPOKESPERSON, EXPERIENCE 
                   WAVE, FORMER U.S. SENATOR

    Mr. Wofford. Chairman Miller and Ranking Member McKeon, 
thank you for convening this first full committee hearing of 
the 111th Congress by this pioneering committee and for your 
fine opening statements. And I appreciate the excellent work 
Representative McCarthy and Representative Platts did on 
national service in the Subcommittee on Healthy Families and 
Communities.
    Now, my grandsons, hearing that I was going to be on a 
panel with Usher, came to life and said, ``That is really 
cool.'' [Laughter.]
    I am happy to be here with all these cool panelists.
    Rick, I am sorry I missed the Constitutional Convention in 
1787. [Laughter.]
    But I think 2009 is going to be a very good year, thanks in 
part to your cover stories and the summit you helped convene.
    But at that summit, when both presidential candidates, 
Obama and McCain, supported a quantum leap in national service 
and became cosponsors of the Serve America Act that day 
introduced in the Senate by Senators Ted Kennedy and Orrin 
Hatch, the networks, following their habit of treating good 
news as no good news, announced that the two candidates had 
agreed on national service, so there was no news coming from 
the summit.
    Well, last night in his address to Congress, President 
Obama made news on a number of fronts, not the least on the 
front of citizen service. Now is the time to act boldly and 
wisely, he said. And he asked Congress to enact the Kennedy-
Hatch bill. That bill is a companion and corollary of the GIVE 
Act, which we are most immediately considering today. I hope 
that this pace-setting hearing will in due course lead to the 
great good news of bipartisan enactment of comprehensive 
legislation that expands greatly the opportunities for all 
Americans to serve.
    Now, this week I just returned from India with a 
congressional delegation led by John Lewis and Spencer Baucus, 
joined by Martin Luther King III. We traced the trip made 50 
years ago by Martin Luther King Jr., which I had helped arrange 
long ago. King was a man of service who said, ``Everybody can 
be great--because anybody can serve.''
    Mr. Chairman and members of the committee, those of us here 
in support of the GIVE Act are trying to practice what Dr. King 
prescribed. We hope that in the same spirit you will recommend 
legislation to encourage and enable anyone at any age to serve.
    Let me tell one other story of long ago. Soon after 
President Kennedy's death, my wife and I, been living in 
Ethiopia where I was Peace Corps director and representative 
for Africa, were invited to Israel. We put at the top of our 
list a meeting with the great philosopher Martin Buber. In our 
conversation with him, I cited a passage from his book Paths in 
Utopia in which he said that though his dream of Israel and 
Palestine cooperation and Arab-Jewish brotherhood had been 
plowed under by events, a great idea will return when idea and 
fate meet once more in a creative hour.
    When I asked Buber if he saw signs of that hour coming 
soon, Clare guffawed and said that from what she saw it would 
be a long time coming. As we parted, Buber said to me that I 
was obviously a romantic, and he hoped I knew how lucky I was 
to be married to a realist. And to Clare he said, you are right 
that these creative hours when idea and fate meet come only 
rarely after long intervals, but they do come. And once one 
comes, I hope your realism will not make you miss it.
    Mr. Chairman and members of the committee, the crisis in 
our economy and the world's economy and the conditions in the 
world and the call to action by the President of the United 
States tell me that such a creative hour is at hand. This is a 
time when this committee can do its part to see that Congress 
and the country do not miss the opportunity.
    It won't surprise you, Mr. Chairman, that I support all the 
key parts of the GIVE Act, including AmeriCorps, Learn and 
Serve America, and the Senior Corps. But today at nearly four 
score and three years of age, I am here particularly on behalf 
of the Experience Wave, a campaign supported by the Atlantic 
Philanthropies to advance state and federal policies to tap the 
reservoir of talent, time and skill of the boomer generation 
and encourage all older adults to be engaged in work for the 
common good in civic life and in service.
    Unfortunately, many people and pundits view the coming 
population of older Americans as a threat and a burden. 
Instead, we need to see them first of all as an asset of 
tremendous potential, a great force for the common good, and 
they need to see themselves in that light.
    The three programs of the Senior Corps of the Corporation 
for National and Community Service--Foster Grandparents, Senior 
Companions, and the Retired Senior Volunteer Program (RSVP)--
together tap the talents of more than a half million older 
Americans each year. All three programs have done great work 
for many years, which I saw first-hand as CEO of the 
corporation. Those programs provide good ways for seniors to 
contribute and make a real difference for the individuals 
involved and for nonprofits, faith-based and other community 
organizations throughout the United States. They should be 
expanded, as should the newer Experience Corps.
    To crack the atom of citizen service and release its full 
potential, we need to recognize that citizen service is ageless 
and that it can creatively connect the generations.
    The experience wave of older Americans is coming. In 2006, 
the first of the 77 million boomers turned 60. The wave has 
begun. The boomers represent the most active, healthy and 
educated retiring generation in history. For example, the new 
Experience Corps members are a diverse group. Ages range from 
50-87, their income and education a wide range as well. Over 
half are African American, 39 percent white.
    In addition to delivering valuable help to others, those 
older adults in the Senior Corps and the Experience Corps can 
improve their own lives by service. Findings in two studies of 
Experience Corps members by Washington University and Johns 
Hopkins show a sustained increase in civic activity, in greater 
public support for public education, and a wider circle of 
friends and a better outlook on life.
    Chairman Miller. Senator, I am going to ask if you can wrap 
it up.
    Mr. Wofford. So I will submit the rest of my----
    Chairman Miller. Thank you.
    Mr. Wofford [continuing]. Testimony of a page-and-a-half 
into the record.
    [The statement of Mr. Wofford follows:]

Prepared Statement of Hon. Harris Wofford, Former United States Senator

    Let me first thank Chairman Miller and Ranking Member McKeon for 
convening this hearing on national service and volunteerism. It is 
important and timely for every American and is an issue that defies 
partisan boundaries. Citizen service belongs to no party, no ideology. 
It is above all an American idea in which Americans can find common 
ground.
    Today, I speak on behalf of the Experience Wave, supported by The 
Atlantic Philanthropies. Experience Wave is a campaign to advance state 
and federal policies that tap the reservoir of time, talent, skills and 
abilities of the boomer generation and enable older adults to stay 
engaged in work, civic life, and service.
    In President Obama's words, we find one of the compelling reasons 
to embrace citizen service:
    Through service, I found a community that embraced me; a church to 
belong to; citizenship that was meaningful; the direction I'd been 
seeking. Through service, I found that my own improbable story fit into 
a larger American story. (``A Call to Serve,'' Cornell College, Iowa, 
December 5, 2007)
    The call to service is one that I helped issue nearly half a 
century ago when I worked with President Kennedy and Sargent Shriver to 
create the Peace Corps, and, later with Sargent Shriver, on the Foster 
Grandparent Program.
    Today, the three programs of the Senior Corps--Foster Grandparents, 
Senior Companions, and the Retired and Senior Volunteer Program (RSVP), 
together tap the talents of one-half million older Americans in service 
to their communities and their neighbors. As all three programs have 
done so well for many years (which I saw first hand as CEO of the 
Corporation for National and Community Service) Foster Grandparents 
work with at-risk children, Senior Companions provide a lifeline to 
homebound seniors, and the RSVP program engages hundreds of thousands 
of volunteers in an array of community service: in disaster relief, 
homeland security, environmental action, including help to other older 
Americans needing education against telemarketing fraud, in the 
prevention of falls, and for new involvement in a green economy. These 
programs provide good ways for seniors to contribute and make a real 
difference for individuals, nonprofits, and faith-based and other 
community organizations throughout the United States. They should be 
expanded.
    I just returned from India with a Congressional delegation led by 
John Lewis and Spencer Bachus. We retraced the trip made fifty years 
ago by Martin Luther King, Jr. He was a man of service who said, 
``Everybody can be great * * * because anybody can serve. You don't 
have to have a college degree to serve. You don't have to make your 
subject and verb agree to serve. You only need a heart full of grace. A 
soul generated by love.''
    Mr. Chairman, Members of the Committee, at nearly four score and 
three years, I am still trying to practice what Dr. King prescribed. In 
that spirit I am here to support legislation that will encourage anyone 
at any age to serve. The GIVE Act and other legislation you are 
considering does that.
    Creating service opportunities for fellow Americans is one of the 
most important needs of the nation. I have been lucky to be a part of 
many efforts to do this--in the 1980s as the initiator of Pennsylvania 
Governor Bob Casey's Office of Citizen Service and in the l990s as CEO 
of the Corporation for National and Community Service, and now in this 
new decade as a spokesperson for the Experience Wave.
    Unfortunately, many view the coming population of older Americans 
as a burden. Instead, we need to see them first of all as an asset of 
tremendous potential, a great force for the common good. And they need 
to see themselves in that light.
    To crack the atom of citizen service and release its full 
potential, we will all need to recognize that citizen service is 
ageless, that it spans the generations and connects the generations.
    The experience wave is coming. In 2006, the first of the 77 million 
``boomers'' (Americans born between 1946 and 1964) turned 60 and the 
wave began. By comparison, there were 48 million people born from 1963-
1978, the so-called ``Generation X.''
    As the boomer generation begins to retire and leave vacancies, 
employers in all sectors will be pressed to replace them with younger 
workers who may lack the skills and experience the older workers 
brought to the workplace. This knowledge and experience gap will hit 
some industries and sectors particularly hard.
    The boomers represent the most active, healthy, and educated 
retiring generation in the history of the United States. This presents 
a great opportunity for businesses, communities, and non-profit 
organizations to engage mature and older workers in continued 
employment or charitable service. We can't afford to miss this 
opportunity.
    The boomer generation wants to give back to society, to be useful. 
Many know they want to try their hands at second careers, whether in 
part-time or full-time work, or in volunteer service. As the idea of 
encore careers spreads, many more will want to undertake them.
    For this to happen we will need to create programs to retrain or 
expand the skills of boomers so they can take on new or expanded 
responsibilities. Charitable work will often need to be restructured. 
With the right preparation, this generation can mentor or tutor young 
people, prepare tax returns, give advice on health, and perform a 
variety of high-skill services.
    With labor shortages in health care, engineering, education, 
government, and other sectors, it is in our national interest to usher 
the generation that invented computers and modern medicine into an 
another phase of life that may include flexible paid work as well as 
charitable service or pro bono work.
    In addition to delivering high quality, crucial service, older 
adults can improve their own lives. Two recent studies by Washington 
University and Johns Hopkins University find that service in the 
Experience Corps program, in which people over 55 now tutor and mentor 
disadvantaged elementary school students in 23 cities, provides a 
sustained boost in health and well-being for the tutors themselves.
    Experience Corps members are a diverse group. The average age is 
65, but the ages range from 50 to 87. Their income and education covers 
a wide range as well. Over half the members are African American and 
39% are white. Findings in the two studies showed a sustained increase 
in levels of activity, greater engagement in social and community 
events, greater support for public education, a wider circle of friends 
and a better outlook on life.
    Research also indicates that adults who are active and engaged are 
healthier longer and less reliant on federal programs such as Medicare 
and Medicaid. So service can be a preventive medicine to help preserve 
our budgets. And there are all these benefits for those who serve, 
while kids' reading scores improve, the homebound receive assistance, 
the forgotten are remembered, and a multitude of others are helped.
    A critical factor to recognize is that many, if not most, boomers 
will need to work for pay or some other income support because their 
retirement savings or income is insufficient. A recent AARP survey of 
1,200 boomers found that more than 80 percent expect to work at least 
part-time in their retirement years.
    Unfortunately, many barriers discourage people from continuing to 
work. Some employer pension plans require retirement by a certain age 
and many workplaces do not offer flexible schedules that many older 
workers seek.
    This committee can address these challenges, sustain the good works 
of current programs and expand other opportunities for boomers to meet 
the evolving needs of our communities, boomers, and other older 
Americans.
    So I offer my warm support to last year's GIVE Act. The Act 
promotes programs to encourage boomers and older adults to volunteer 
with a range of opportunities including:
    <bullet> Next Chapter Grants to fund organizations such as 
community colleges and other nonprofits to serve as one-stop resources 
for finding paid or volunteer jobs that provide service to the 
community;
    <bullet> Time Banking which would create local service exchanges 
where both parties are compensated with reciprocal amounts of volunteer 
service and no money changes hands;
    <bullet> Requirements that states develop comprehensive plans to 
tap the resources of boomers and older adults for volunteer and paid 
work;
    <bullet> Bilingual Volunteer Recruitment to enhance outreach for 
senior volunteer programs so that bilingual volunteers are recruited; 
and
    <bullet> The creation of additional programs to help ensure that 
low-income Americans, including older adults, have opportunities to 
serve, including Silver Scholarships.
    In addition, your colleagues in the Senate have addressed the issue 
with program expansions and innovations which should be supported by 
both chambers of Congress and by both sides of the aisle:
    <bullet> Senators Kennedy and Hatch have introduced the 
comprehensive Serve America Act which includes the Senior Corps; and 
new Encore programs; and
    <bullet> Senator Dodd and Congresswoman DeLauro have written the 
Encore Service Act which includes the Silver Scholars program--
highlighted by Congressman Sestak--an initiative that encourages older 
adults to continue lifelong learning and apply it to new careers and 
goals.
    The potential for drawing millions of boomers into serving local 
communities is one of the promising elements in national service 
legislation. We know that 10,000 boomers turn 60 every day. Some of 
them have already retired, some are facing involuntary retirement due 
to the economic downturn, and some will continue to work full-time for 
many years. National service should offer all of them an attractive 
menu of opportunities to do what most of them already say they want to 
do--help others. They should be able to serve for one or many years, 
there should be part-time and full time opportunities; education awards 
should be available for transfer to a grandchild or a child they have 
tutored or mentored. It is important for the outreach, recruitment and 
program design for this population to be tailored to what is known 
about Boomers.
    Mr. Chairman, I ask that the following documents be placed in the 
record: a letter to the Obama transition team from some of our nation's 
service leaders, a letter from the Age for Change coalition supporting 
service legislation, and an op ed that Representative Lewis and I wrote 
that was published on inauguration day.
    Mr. Chairman and committee members, I remind you of the good work 
you have done with the Age Discrimination in Employment Act (ADEA). Now 
all boomers are protected by it. Your committee can now help the 
boomers become or remain engaged in valuable employment and volunteer 
work by moving these national service bills forward this year.
    In difficult economic times, the power and value of volunteer 
service is greater. You have passed the Recovery and Reinvestment Act 
to help jump start the economy. In the next series of actions, we hope 
you will enact legislation, such as the GIVE Act, to provide an 
intergenerational investment--allowing more people to help their 
communities and their fellow Americans who are in need.
    But also please visit the Experience Wave website at 
www.experiencewave.org.
    You'll see that there is a great deal of activity around 
stimulating service opportunities at the state level. Thank you for 
moving forward on the Federal front.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Wofford. And do I have a chance to introduce----
    Chairman Miller. No. I will tell you why, because we are 
going to have a problem with a vote here in a few minutes. And 
I would like to get through----
    Mr. Wofford. Thank you very much. They are----
    Chairman Miller [continuing]. Through the testimony.
    Mr. Wofford [continuing]. An outstanding group of----
    Chairman Miller. But thank you so much for your testimony.
    Mr. Wofford [continuing]. Of people here today.
    Chairman Miller. And thank you again for all your service.
    Usher, we are going to take your testimony at this point.
    I will just say to the members, we are expecting votes in a 
little while. We are going to proceed as deep into that vote as 
we can with the testimony before we break. And then we have 
three votes: one 15-and then two 5-minute votes. So hopefully 
we will diminish the amount of interruption.
    Usher, welcome.

  STATEMENT OF USHER RAYMOND IV, RECORDING ARTIST, CHAIRMAN, 
                  USHER'S NEW LOOK FOUNDATION

    Mr. Raymond. I will try to be as quick as possible.
    Chairman Miller. No, you say what you want to say.
    Those other two guys flunked the test already, so don't 
worry about it. [Laughter.]
    Mr. Raymond. It was a testimony experience.
    Thank you, Chairman Miller, very much, and Chairwoman 
McCarthy, so much for this incredible opportunity to invite me 
to be a part of this testimony to the House Education and Labor 
Committee.
    I am truly honored to be here today to discuss issues that 
deeply are relevant to our nation, as evident from President 
Obama's address last night. I take a personal hand in saying 
that this is a priority to me, to empower youth to become more 
active in their communities through community service.
    When I was a child, I attended the Boys and Girls Club of 
Chattanooga, Tennessee. This was my first real exposure to 
community service. It was empowering. It made me realize that I 
could truly make a difference, no matter what my age was.
    And the youth today is no different. When I stand onstage 
and see young fans, I am blown away by their energy. But I am 
also excited to get off the stage and see them serving in their 
communities, making a difference. They call this generation, my 
generation, the Millennians. Well, I call them ``Generation 
S''--a generation of service-minded youth leaders, ready to 
serve. And together we are ready to change the world.
    Ten years ago, I started my organization, the New Look 
Foundation, because I had not forgotten the early lessons about 
service. I didn't just want to write a check but yet wanted to 
be hands on. As a young organization, I found many 
opportunities to positively impact the lives of others. Rather 
calling on youth to serve in the Gulf Coast or providing rent 
and utility assistance to over 750 families after Katrina and 
Rita, the one thing we recognized is that youth today have 
incredible potential, drive and determination. But they need an 
opportunity, and they need the tools to succeed.
    Our signature program through my foundation, Camp New Look, 
was created to provide youth in underserved communities with 
some of those tools and opportunities to do so. At Camp New 
Look, we have not only exposed 250,000 youth to the business 
side of the sports and entertainment industry but seek to 
mentor them in gaining careers in these multibillion dollar 
industries. We empower them to increase their economic status 
and careers in these industries that they love--music, sports 
and entertainment. We guide them to higher education, shadowing 
and internship opportunities. We show them options that they 
did not know exist.
    Along their path of career exploration, they will learn to 
work as a team, take risks as leaders, and to respond to their 
communities. James Harris used his skills learned at Camp New 
Look to enroll into college to become a leader and a future 
entrepreneur, as you can hear--and, as I have noticed, to 
become one of our next music industry moguls. All New Look did 
was give him the opportunity and the tools to succeed. And he 
did the rest.
    But there are so many more kids who need help, who need the 
tools and opportunities to succeed. For every young person we 
help, there are thousands more who are waiting to be reached. 
And that is why I felt compelled to be here today to offer my 
service to National Service.
    On September 11th--which I happened to be there--I was 
honored to be a part of the Service Nation committee. I was 
brought together hundreds of people who discussed how national 
service could address some of our nation's most pressing 
issues. I led a workshop with a group of over 100 youth leaders 
across the country to discuss how we could encourage, engage, 
youth to become more active in their communities. I made a 
pledge to them that I would be their voice if I had the chance 
to, so I am here today.
    And I want to share a little bit of what we talked about in 
those meetings:
    1. The need to engage more youth in service, to empower 
them with the tools needed to lead. Any true change always 
comes because people come together and make their voices heard. 
Well, young people have always been amongst the ones to have 
the loudest and the first to speak. Generation S is taking that 
to a new level because of their creativity, drive and comfort 
in using technology to mobilize the masses.
    We should provide these resources to our schools, in my 
opinion, to offer service learning programs where young people 
can take their idealism and turn it into action while they are 
learning to do it. Generation S will find ways to share their 
experiences and feelings through technology, spreading the 
ideas across the country and around the world.
    2. We need to change the perspective of service within 
these underserved communities. Far too many young people live 
in places where it is hard, and the notion that service is that 
of a sentence being handed down from a judge should change. It 
should be something that is gratifying to be able to do. But we 
have to support innovative ideas that are outside of the box.
    To address some of these critical issues in our underserved 
communities like the dropout crisis and poverty, our youth 
begin to serve and be positive role models in the communities 
and help influence their peers to start thinking and living 
life in a different way, to make better choices and to stay in 
school, to feel more connected and work together through 
education.
    Service is an incredible thing, and it should be something 
that is not only just the right thing to do but the cool thing 
to do. Don't you guys agree?
    Last, but not least, other organizations like City Year, 
Service America, America Corps and Hands On--I recognize these 
individuals because they have been a part of developing youth 
groups to succeed in life. And as I have shared with you, I 
have seen it first hand.
    As I continue to do so with my organization, I advise that 
other organizations do the same, to open opportunities to those 
kids, those people, those youth to unleash that energy and to 
help make our communities stronger. We can direct their passion 
for service and reward and support them by providing them with 
aid in college, grants, service hours completion stipend, and 
encouraging corporations and colleges to meet match funds for 
the received service.
    I can't think of a greater contribution to our communities 
than time--our time--and not a greater reward for that time 
than a returned investment in our future.
    I will close with this: Dr. Martin Luther King, Jr. said, 
``the time is always right do to what is right.'' Dr. Martin 
Luther King, I pass this back to you: Generation S is ready to 
do the right thing. And the right time is now.
    Today on behalf of Generation S, a generation of service-
minded youth leaders, I am here. And all we need is a chance 
and an opportunity, and we will serve.
    [The statement of Mr. Raymond follows:]

  Prepared Statement of Usher Raymond IV, Recording Artist, Chairman, 
                      Usher's New Look Foundation

    Thank you Chairman Miller and Chairman McCarthy for inviting me to 
testify before the House Education and Labor Committee. I am honored to 
be here today to discuss an issue that is deeply relevant to our nation 
and personally important to me: empowering young people to give back to 
their communities through service opportunities.
    When I was a child, I attended the Boys and Girls Club in my home 
town of Chattanooga, Tennessee. It was my first real exposure to 
community service. It was empowering, and it made me realize that I 
could really make a difference, no matter what my age. Youth today are 
no different. When I stand on the stage and see my young fans, I am 
always blown away by their energy--but I am even more blown away when I 
come off the stage and see them in action in their community. They call 
this generation--my generation--the Millennials, but I call us 
Generation `S', for service--because we are a generation ready to 
serve. Together, we are ready to change the world.
    Ten years ago, I started my organization, the New Look Foundation, 
because I had not forgotten my early lessons about service. I didn't 
just want to write checks. I wanted to be hands on. As with any young 
organization, we found many opportunities to positively impact the 
lives of others. Whether calling on youth to serve in the Gulf Coast or 
providing rent and utility assistance to over 750 families after 
Hurricane Katrina, we recognized young people today have incredible 
potential, drive and determination. But they need opportunities, and 
they need tools to succeed.
    Our signature program through the Foundation, Camp New Look, was 
created to provide youth from under-served communities with some of 
those tools and opportunities they need. At Camp New Look, we have not 
only exposed over 2,500 youth to the business side of sports and 
entertainment but we seek to mentor them on how to gain careers in 
these multibillion dollar industries. We empower them to increase their 
economic status by pursuing careers in the industries that they love--
music, sports and entertainment. We guide them to higher education, 
shadowing and internship opportunities-we show them options they didn't 
know existed. Along their path of career exploration, they learn to 
work as a team, take risks as leaders, and be responsible for their 
communities.
    James Harris used the skills he learned through his involvement at 
Camp New Look and enrolled in college, became a leader in his hometown 
of Kansas City, and is well on his way to being the next music industry 
mogul. All New Look did was give him the opportunity and the tools. He 
did the rest.
    But there are so many more kids who need help--who need the tools 
and opportunities to succeed. For every young person we help, there are 
thousands more who are waiting to be reached. That's why I felt 
compelled to come today and offer my support for National Service.
    On September 11, 2008 I was honored to serve as youth chair of the 
ServiceNation Summit, which brought together hundreds of people to 
discuss how national service can help to address some of our nation's 
most pressing problems. I led a workshop with a group of 100 other 
young leaders from across the country to discuss how we encourage and 
engage other young people in service. I made a pledge to them that I 
would be their voice whenever I had the chance to do so.
    There were many suggestions and ideas that came from our time 
together, and I'd like to share a few of them:
    1. We need to engage more youth in service, and we can do this by 
empowering them with the tools they need to lead. Any true change has 
always come about because people have come together to make their 
voices heard, and young people have always been among the first to lift 
their voices. Generation S is taking that to new levels, because of 
their creativity, drive and comfort by using technology to mobilize the 
masses. We should provide the resources to our schools to offer service 
learning programs where young people can put their idealism into action 
and learn while they are doing it. Generation S will find ways to share 
what they are experiencing and feeling through technology, spreading 
the idea across the country and around the world.
    2. We need to change the perception of service within our under-
served communities. Far too many young people are living in places 
where life is hard, the notion of service is still that of a 
``sentence'' handed down by a judge. But we can make it cool to serve 
by supporting initiatives that think outside the box. There are 
critical issues in our under-served communities that we must begin to 
solve--issues like the drop-out crisis and poverty. Youth can begin to 
serve as positive role models, and help influence their peers to start 
thinking about living life in a different way, to make better choices--
to stay in school, feel more connected, work towards their education. 
Service is an incredible thing, and should be seen as not only the 
right thing to do, but a cool thing to do.
    3. Best in class organization like City Year and Hands On, 
demonstrate that National service should be a pathway for young people 
to develop as leaders while they gain the skills they need to succeed 
in life. As I have shared with you, I have seen what is possible when 
young people are empowered with the right tools for success. We need to 
continue to open the doors of opportunity for these young people to 
unleash their energy and help make our communities stronger. We can 
direct their passion into service--and reward and support their dreams 
by providing them with aid for college, grants, service-hour completion 
stipends, and encouraging corporations and colleges to match funds they 
receive for hours served. I can think of no greater contribution to 
your community than your time, and no greater reward for that time than 
a returned investment in your future.
    Dr. Martin Luther King Jr., said `the time is always right do to 
what is right.' Like Dr. King, this Generation `S' is ready to do what 
is right, and is ready to lead the way. So today on behalf of 
Generation S, I am here to say * * * if you give us a chance and the 
opportunity, we will serve!
    Thank you for your time.
                                 ______
                                 
    Chairman Miller. Thank you very much for your testimony.
    Mr. Harris--James?

STATEMENT OF JAMES HARRIS, YOUTH PARTICIPANT, USHER'S NEW LOOK 
                           FOUNDATION

    Mr. Harris. Hi.
    Hi. How y'all doing? I would like to thank you chairman, 
Mr. Miller, and chairwoman, Mrs. McCarthy, for allowing me to 
have the opportunity to tell a little about myself and tell a 
little about my story.
    Well, 3 years ago when I was recommended and selected to 
attend Camp New Look, I would have never thought I would be 
here, sitting next to Usher, speaking to distinguished members 
of the Education and Labor Committee.
    Before Camp New Look, I was involved in some things that 
were not positive at all. Growing up in my neighborhood, I took 
a lot of negative things to be that of the norm. But at Camp 
New Look, they taught me that these things were not the norm 
and that I could do better.
    Back at J.C. Harmon High School, my goal was to never go to 
college, never to get a degree--it was just to making it into 
the music world as a rapper.
    In 2007 at Camp New Look, I learned how to make a business 
plan from start to finish. I was also awarded the Star Camper 
Award for that year. And this is where I got my first service 
learning experience, at the Atlanta Community Food Bank sorting 
through 40,000 pounds of food. To know that I helped reach so 
many people at one time was an unbelievable feeling. And I also 
come to realize that no matter how little I thought I had, 
there was people out there that had much less than me. But I 
had the power to help them.
    Working with Usher, who I have come to believe is the true 
definition of service leadership, he leads by example. He works 
with us side by side, working just as hard as we do. He always 
tells autograph seekers, now is the time to work--it will be 
time for that later on. But we gotta get to work right now!
    Me, now, I am currently enrolled in Johnson County 
Community College, going for business management with a 
concentration on entrepreneurship. Though I still aspire to be 
a successful musician, my dreams have changed dramatically 
since camp.
    Camp New Look opened up new doors for me which led my 
thinking to become more business-oriented. They taught us in 
order to be a strong artist you must know the business aspects 
of the industry. For example, me being a rapper, if I had a 
degree in accounting, I can manage my own books, and I have a 
second career to fall back upon. We call that a double threat. 
[Laughter.]
    Camp New Look inspired me to go to school. I credit Usher 
and my mentors for this. They got my gears going in reverse. 
They made me think differently. And they are also still playing 
a role by paying for my school and my books.
    In September 2008, I was also there in New York at the 
Service Nation service summit representing one of the 101 young 
leaders across the nation. There were leaders from every sector 
of the American society there, even then like Senator McCain 
and then Senator Barack Obama. That New York trip, being around 
so much positivity and so much young people who actually just 
wanted to do something in their communities and do something 
worldwide led me to go home, Kansas City, Kansas, and take 
initiative on my own.
    And through New Look funding, I actually got to host my own 
service project. And this taught me a lot about leadership and 
organization.
    Camp New Look, they made me think past my circumstances and 
past my environment. They taught me not to let my situation or 
other people's labels hold me back from my dreams. Now I 
overlook obstacles, and I use them to my advantage.
    When my peers see me back at home, they see hope. I am a 
walking testimony that anyone, like myself, can achieve their 
dreams. All it takes is hard work, and hard work does pay off. 
If I made it--if I made it, I know anyone can make it.
    I would like to thank you for your time and your 
consideration.
    [The statement of Mr. Harris follows:]

Prepared Statement of James Harris, Youth Participant, Usher's New Look 
                               Foundation

    Three years ago when I was recommended and selected to Camp New 
Look, I never would have thought I'd be sitting here, next to Usher, 
speaking to distinguished members of the Education and Labor Committee!
    Before camp, I was involved in some things that were not positive 
at all. Growing up in my neighborhood, I took a lot of negative things 
as just being the norm. But at camp, they showed me that this was not 
the norm and that I could do better.''
    As a student at J.C. Harmon High School in Kansas City, I didn't 
always plan to go to college. My primary goal wasn't getting a degree--
it was making it in the music world as a rapper.
    In 2007, I was selected to attend Usher's Camp New Look, where I 
learned to develop a business plan from start to finish and also earned 
the coveted Star Camper Award. That summer at camp I gained my first 
service experience working at the Atlanta Community Food Bank to sort 
40,000 pounds of food. To know that I helped reach so many people who 
were in need was an unbelievable feeling. It taught me that no matter 
what I didn't have in my life there was someone out there who had less 
and I had the power to help.
    Working with Usher who I believe is the true definition of Service 
leadership, he leads by example. Every time we participate in a service 
project he's there leading the way working just as hard as we are. He 
always tells autograph seekers, there'll be time for that later, now 
its time to work!
    Today I'm majoring in business administration and entrepreneurship 
at Johnson Community College. Though I still aspire to be a successful 
musician, my dreams have changed dramatically since attending camp.
    Camp New Look opened new doors for me and allowed me to become more 
business-oriented. At camp, they taught us that there is more to the 
music business than being an entertainer and in order to be a strong 
artist, you need to know the business side of the industry. A rapper 
with an accounting degree can manage his own books and has a second 
career to fall back on; we call it being a double threat.
    I credit my mentors at Camp New Look for inspiring me to earn a 
college degree. They got my gears going in reverse and I started 
thinking differently. They believed in me when I didn't believe in 
myself
    Even today, Usher's New Look continues to play a role by paying for 
my books and tuition.
    In September 2008, I was one of 101 young leaders across the nation 
to participate in the historic ServiceNation Summit in New York City, 
attended by leaders from every sector of American society including 
Senator John McCain and then Senator Barack Obama. It was here that I 
became inspired to take my own community service to another level and 
be part of a positive change at home. I returned to Kansas City and 
with funding from New Look to host my own community service project, 
which has taught me a lot about organization and leadership.
    Camp New Look pushed me to think past my environment and my 
circumstances. I learned not to let my situation or other people's 
labels hold me back from my dreams. Now I can overlook certain 
obstacles and use them to my advantage.
    When my peers see me, it is a strong testimonial that anyone can 
achieve their dreams and if I made it, anyone can make it.
    Thank you for your time and consideration!
                                 ______
                                 
    Chairman Miller. Thank you very much. Thank you. 
[Applause.]
    That is great. That is wonderful.

    STATEMENT OF DR. CHERYL DORSEY, PRESIDENT, ECHOING GREEN

    Dr. Dorsey. Thank you, Chairman Miller, Ranking Member 
McKeon and members of the committee for having me here today.
    And thank you, Mr. Harris, for that incredibly inspiring 
testimony. Thank you for sharing it with us.
    It is a tremendous honor to be with you all today to 
testify about the power of people and ideas through service and 
innovation to tackle our communities' toughest social problems 
and transform lives.
    Some background may provide some helpful context for my 
testimony today. Twenty years ago, I enrolled at Harvard 
Medical School. I was to be the first physician in my family. 
Yet two blocks away from perhaps the world's best medical 
school, black babies were dying at three times the rate of 
white babies. The Boston Globe called this ``Birth in the Death 
Zones.'' I was just a student, but I was also a local resident 
outraged by this inequity.
    Along with Dr. Nancy Oriol, I co-founded The Family Van, a 
mobile health unit providing basic medical services, referrals, 
and health education to disadvantaged families in inner-city 
Boston. Today, The Family Van annually serves about 7,000 
clients.
    My story is not unique in that there are thousands of 
citizens who see problems in their communities every day and 
develop new, innovative solutions to tackle them. What is 
unique, however, is that I had access to a pool of seed 
capital, start up funds, from an organization called Echoing 
Green that allowed me to launch my community organization. 
Echoing Green is now the organization that I run.
    The mission of Echoing Green is to provide start-up funding 
and support to some of the world's best emerging social 
entrepreneurs. Social entrepreneurs are individuals who 
identify and take responsibility for an innovative and untested 
idea for positive change and then usher that idea from concept 
to reality. Just as entrepreneurs in the private sector are 
innovative and relentless in their pursuit of success, so too 
are social entrepreneurs as innovative and as relentless but in 
pursuit of social impact.
    Social entrepreneurship, or social innovation, is 
essentially applying the principles of innovation that have 
served this country so well in the private sector to the social 
sector. It is all about addressing pressing social challenges. 
And even though we don't think of it in this way often, 
principles of innovation, entrepreneurship, accountability, 
results, and competition can exist in the social sector, just 
as they do in the private sector.
    Let me talk a bit about Echoing Green's track record. Since 
1987, our fund has made small investments totaling about $30 
million in the ideas of close to 500 social entrepreneurs, 
including myself, Van Jones next to me, and Ms. Marta Urquilla 
behind me. These social entrepreneurs are working all over this 
country and all over the world and serving millions of people 
tackling issues as disparate as poverty, human rights abuses, 
educational inequities and health care disparities. Just a few 
examples: Echoing Green helped launch national service leaders 
like Teach For America, City Year, Public Allies, Jump Start, 
and BELL.
    Echoing Green has also helped seed new community models 
like Working Today, which provides affordable, portable health 
benefits to 100,000 members across the country; the SEED 
School, right across the river, the nation's first urban 
boarding public school; and Credit Where Credit is Due, the 
first credit union in Washington Heights, New York; and 
finally, social enterprises like the Bay Area's Hallmark 
Community Solutions, a nonprofit housing developer that creates 
new opportunities for people with developmental disabilities.
    So I actually want to make clear for a moment that I am 
actually not an accidental participant in this panel. Social 
entrepreneurship and national service have been important 
partners in the work of social change.
    First off, national service is often a critical source of 
human capital for social entrepreneurs. Because social 
innovation demands high levels of efficiency and maximization 
of outcomes, leveraging the work of volunteers and part-time 
and full-time service members is absolutely critical.
    Second, AmeriCorps money has provided the second stage of 
growth capital for many of the organizations I have discussed, 
like Teach For America and Jump Start. Because AmeriCorps does 
not dictate a program model, it has allowed creative 
individuals to think of ways for full-time members and part-
time volunteers to solve problems in new and creative ways that 
would not be possible under federal funding streams that 
dictate specific programmatic approaches. In this way, national 
service funding supports and fosters innovation in the social 
sector in ways that most other funding streams do not.
    Finally, as someone who runs a social venture fund and is 
committed to identifying, vetting, and supporting solution-
oriented, metrics-based enterprises that unleash both social 
and economic value, I do look favorably upon the role that 
AmeriCorps dollars have played in spurring social innovation 
and filling gaps in the social capital marketplace.
    In addition, the President's call for a Social Innovation 
Fund Network to catalyze public and private dollars for 
identifying and scaling solutions to social problems represents 
an important reorientation of government's relationship toward 
the nonprofit sector and mirrors the important role that the 
government has played in facilitating innovation, competition, 
and economic growth in the private sector.
    I hope my perspective has been of some use, and I do 
appreciate the opportunity to be here today. Thank you so much.
    [The statement of Dr. Dorsey follows:]

   Prepared Statement of Cheryl L. Dorsey, M.D., M.P.P., President, 
                             Echoing Green

    Thank you Chairman Miller, Ranking Member McKeon, and Members of 
the Committee for having me here today. It is a tremendous honor to be 
with you to testify about the power of people and ideas through service 
and innovation to tackle our communities' toughest social problems and 
transform lives.
Background
    Some background may provide helpful context for my testimony today. 
Twenty years ago, I enrolled at Harvard Medical School; I was to be the 
first physician in my family. Yet two blocks away from perhaps the 
world's best medical school, black babies were dying at three times the 
rate of white babies. The Boston Globe called this ``Birth in the Death 
Zones.'' I was just a student. But I was also a local resident outraged 
by this inequity. Along with Dr. Nancy Oriol, I co-founded The Family 
Van, a mobile health unit providing basic medical services, referrals, 
and health education to disadvantaged families in inner-city Boston. 
Today, The Family Van serves about 7,000 clients each year. My story is 
not unique in that there are thousands of citizens who see problems in 
their communities every day and develop new, innovative solutions to 
tackle them. What is unique is that I had access to a pool of seed 
capital--start up funds--from an organization called Echoing Green that 
allowed me to launch The Family Van. It is the organization I now run.
Echoing Green and social entrepreneurship
    The mission of Echoing Green is to provide start up funds and 
support to some of the world's best social entrepreneurs. Social 
entrepreneurs are individuals who identify and take responsibility for 
an innovative and untested idea for positive social change, and then 
usher that idea from concept to reality. Just as entrepreneurs in the 
private sector are innovative and relentless in their pursuit of 
success, social entrepreneurs are innovative and relentless in their 
pursuit of social impact.
    Social entrepreneurship or social innovation is, essentially, 
applying the principles of innovation that have served this country so 
well in the private sector to the social sector--to the work being done 
to address the pressing social challenges we face. Even though we don't 
often think of it in this way, the principles of innovation, 
entrepreneurship, accountability, results, and competition can exist in 
the social sector, just as they do in the private sector. Those of us 
who have toiled in the field of social entrepreneurship believe that 
social innovation is a key driver in identifying the most effective, 
highest-impact solutions to the difficult social challenges facing our 
nation.
    Echoing Green's track record speaks to this. Since 1987, Echoing 
Green has made small investments totaling $27 million in the ideas of 
close to 500 social entrepreneurs working in over forty countries 
around the world and in 42 states across this country. These social 
entrepreneurial organizations are serving millions around the world 
tackling issues as disparate as educational inequity, poverty, human 
rights abuses, and health care disparities. Examples of organizations 
that Echoing Green helped launch include:
    <bullet> National service leaders like Teach For America, City 
Year, Public Allies, Jump Start, Citizen Schools and BELL;
    <bullet> New community models like Working Today which provides 
affordable, portable health benefits to 100,000 members nationwide; the 
SEED School, the nation's first urban boarding public school and Credit 
Where Credit is Due, the first credit union in Washington Heights, New 
York; and
    <bullet> Social enterprises like the Bay Area's Hallmark Community 
Solutions, a nonprofit housing developer that creates new opportunities 
for people with developmental disabilities and SKS Microfinance, the 
fastest growing microcredit institution in India, serving 3 million 
poor women across the country.
Social innovation and service
    I want to make clear that I am not an accidental participant in 
this panel! Social entrepreneurship and national service have been 
important partners in the work of social change. First, national 
service is often a critical source of human capital for social 
entrepreneurs. Because social innovation demands high levels of 
efficiency and maximization of outcomes, leveraging the work of 
volunteers and part-time and full-time service members is critical. 
Second, AmeriCorps money has provided the second stage of growth 
capital for many organizations, like Teach For America and Jump Start. 
While foundations and seed capital organizations like Echoing Green 
often provide the start-up money social entrepreneurs need to implement 
their innovative ideas, AmeriCorps money is a critical resource to help 
take their idea to the next level, once they have demonstrated that it 
can work. Because AmeriCorps does not dictate a program model, it has 
allowed creative individuals to think of ways for full-time AmeriCorps 
members and part-time volunteers to solve problems in new ways that 
would not be possible under federal funding streams that dictate 
specific programmatic approaches to achieve a specific result. In this 
way, national service funding supports and fosters innovation in the 
social sector in ways most other funding streams do not. And third, the 
link between service and innovation is more like a ``virtuous loop.'' 
Those in engaged in service learn how to solve community problems and 
develop the kind of leadership skills that each, next generation needs 
to be action-oriented and solutions-focused.
Government as catalytic partner
    As someone who runs a social venture fund and is committed to 
identifying, vetting and supporting solutions-oriented, metrics-based 
enterprises that unleash social and economic value, I look favorably 
upon the role AmeriCorps dollars have played in spurring social 
innovation and filling gaps in the social capital marketplace. In 
addition, the President's call for a Social Innovation Fund Network to 
catalyze public and private dollars for identifying and scaling 
solutions to social problems represents an important reorientation of 
the government's relationship toward the nonprofit sector and mirrors 
the important role that government has played in facilitating 
innovation, competition, and economic growth in the private sector.
Closing
    I hope that my perspective is of some use to the Committee as you 
continue your most important work of bolstering America's leadership in 
the realm of national service and volunteerism.
    Thank you for inviting me to testify today.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Jones? Van, welcome to the committee.

  STATEMENT OF VAN JONES, FOUNDER AND PRESIDENT, GREEN FOR ALL

    Mr. Jones. Good to be here. Thank you very much, Mr. 
Chairman Miller. I am honored to be here. I want to thank you 
for your leadership on the GIVE Act.
    Ranking Member Mr. McKeon, I want to thank you also for 
your words about the faith community as well as our people who 
are in the military service aspect of this conversation.
    I also want to honor the panel. I am proud to be an Echoing 
Green alum. Cheryl has done a great job of moving that whole 
organization forward.
    And I also want to say that, you know, you are trying to be 
a double threat. I do have a demo tape in my bag, brother. 
[Laughter.]
    And if--you obviously going somewhere. I would look for 
representation. How can I be down, you know? Very impressive, 
Usher, and very impressive, Mr. Harris. You are an example of 
what we are talking about.
    My comments are going to be directed to the question of how 
can green service--green service--be a springboard to green 
jobs which can help deliver on this clean energy revolution 
that President Obama was talking about last night? I think that 
is a critical opportunity that we have.
    One of the things I think is important for us to recognize 
is that we have everything we need in this country right now. 
We have genius in this country. We have programs that are 
working in this country. And we have a tremendous opportunity 
to put people to work in this country doing the work that most 
needs to be done.
    The question is, as we go about retrofitting this country, 
as we go about weatherizing this country, as we go about 
repowering America, how do all Americans get a chance to 
participate? We want this green wave to lift all boats. And, as 
it stands right now, it is not clear how a young man like a Mr. 
Harris would be able to become an entrepreneur in the clean 
energy sector. He could be an entrepreneur thanks to his 
existing experience in the music industry, but I don't think he 
should stop there.
    He could be a mogul in any number of industries, including 
wind, including solar, including biofuels, including 
geothermal--the whole thing. And this country will be better 
when there is a clear pathway for people like him to help us 
solve the biggest problem we have ever faced.
    How can that happen? There is a three-step process 
available to us right now.
    We already have number one: existing service organizations 
that are reaching out to disadvantaged and disconnected young 
people and getting them plugged in to green opportunities. We 
have Youth Build; we have Youth Corps; we have our Conservation 
Corps. They are teaching young people, giving them the tools 
and the training and the technology that they need to build 
green houses, to work on watersheds, to retrofit buildings 
right now.
    But they are not funded at the appropriate level. I think 
we have an opportunity as we move the GIVE Act forward to look 
at every one of these programs and have a theory that says we 
are going to grab, we are going to grow it, and we are going to 
green it, to make sure that every one of these programs has the 
size and the orientation toward the green economy necessary to 
make it work. Grab it, grow it, and green it--we have numerous 
programs ready to go.
    But let us not stop there. One of the worst things that 
happens to our young people is they do have a good opportunity, 
they do have a good experience--for a summer, or for a year. 
And then that experience comes to an end. And then they are 
faced with those same streets or with those same failing rural 
communities and no opportunities.
    So we need to have a second step that directly connects our 
green service to job training. Just as this young man went 
directly from this program to community college, that can be 
done too in the green sector. Let us make sure that the 
graduates of these green service programs--the Green Corps and 
other things that are being proposed--can go directly to 
community colleges, to vocational colleges, to apprenticeship 
programs, so they can become the green collar workers, putting 
up those solar panels, weatherizing those buildings, being a 
part of this green revolution that is coming.
    But the other thing we do to young people which is also 
wrong is that the minute they finish their training program, we 
give them a certificate and no job. We have had job training 
programs for years in this country, and we measure who gets out 
but not who gets into the workforce.
    And the third step has to be making sure that there is a 
green pathway out of poverty to prosperity: green service, 
going to green job training, going into green jobs. And with 
the billions of dollars that are now coming down the pike to 
retrofit and repower America, we need to make sure that there 
are concrete opportunities for people to get into the workforce 
through these new dollars.
    We need to make sure, again, this green wave lifts all 
boats. One of the most important things that I can say is if we 
are going to have a green economy in this country--and we have 
to; our scientists tell us that it is imperative--we need to 
have a green economy that has no throwaway species, no 
throwaway resources, but also no throwaway young people, no 
throwaway neighborhoods.
    We need to make sure those communities that were left out 
of the last century's pollution-based economy are locked in to 
the new clean and green economy. We need to make sure that the 
people who most need new work, new wealth, new health 
opportunities get that. And the best way to do that is to 
connect green service to green job training to green jobs.
    In conclusion, I want to say this is the most fiscally 
conservative, fiscally responsible thing that you can do with 
the public dollars. Those green dollars are the most fiscally 
responsible and conservative dollars that you can possibly 
imagine, because green dollars work overtime. They work double 
time. They work triple time.
    That same dollar that is being used to cut greenhouse gas 
emissions could be used to cut unemployment, cut poverty; if 
you are retrofitting buildings, cutting energy bills, improving 
the value of homes, cutting air pollution. Those green dollars 
work overtime, double time, triple time. Let us put those green 
dollars to work helping young men like Mr. Harris become not 
just the media moguls but the clean energy moguls and leaders 
of the new century.
    Thank you.
    [The statement of Mr. Jones follows:]

 Prepared Statement of Van Jones, Founder and President, Green for All

    Good morning Mr. Chairman, Ranking Member McKeon, and distinguished 
Members of the Committee. I am Van Jones, founding president of Green 
For All, a national organization dedicated to building an inclusive 
green economy strong enough to lift people out of poverty. Green For 
All fights poverty and pollution at the same time by advocating for a 
commitment to, and an investment in, job creation, job training, and 
entrepreneurial opportunities in the emerging green economy--especially 
for people from disadvantaged communities.
    I have attached to my testimony a concept paper entitled ``Clean 
Energy Corps: Jobs, Service and Equal Opportunity in America's Clean 
Energy Economy.'' This document represents a blueprint for the 
transition to the green economy as envisioned by the Clean Energy Corps 
Working Group, a collaboration of Green For All, the Apollo Alliance, 
the Center for American Progress, the Energy Action Coalition, the 
Center on Wisconsin Strategy, The Corps Network, The Susquehanna Group, 
Innovations in Civic Participation, and others.
    While it is my intention this morning is to focus on the important 
role that service has to play in the transition to a green economy, let 
me first outline the bigger picture, as framed by the Clean Energy 
Corps White Paper.
    Most basically and most broadly, the Clean Energy Corps, or CEC, 
seeks an integration of civic, workforce, and economic development that 
creates value for workers, employers, communities, and the planet.
    The CEC accomplishes these ambitious and important goals through 
three interrelated parts: job creation, job training, and pipelines to 
job training--particularly for disadvantaged and disconnected youth--
that begin with service.
    These three components will be intentionally connected though state 
and local partnerships to create well-defined career pathways for CEC 
participants, moving them from the entry point of service, to specific 
skills training, to placement, job retention and careers in energy 
efficiency, energy service, and other industries of the green economy.
    To succeed, the CEC will require:
    <bullet> New funding for a public revolving loan fund that would 
enable researchers, developers, business, and entrepreneurs to pursue 
new green technologies and products.
    <bullet> Full appropriation for the Green Jobs Act to develop a 
green workforce.
    <bullet> Increased funding for the Corporation for National and 
Community Service to increase and improve energy and conservation-
related service opportunities through a Clean Energy Service Corps, 
Senior Corps, and Learn and Serve programs.
    It is about this last piece, increased support for national 
service, and specifically for a Clean Energy Service Corps, that I am 
here to talk about this morning.
    Service is central to the CEC. The Clean Energy Service Corps is 
designed to utilize service as a strategy for engaging disadvantaged 
and disconnected young people in energy and conservation related 
service while at the same time introducing them to and preparing them 
for, careers in the green economy. The nation's youth Service and 
Conservation Corps have been doing this for decades and, with your 
support, they can do much more.
Background
    We have seen in history how service in conservation can repair the 
environment and strengthen the spirit of Americans in hard times. 
Seventy-five years ago, the stock market crashed and millions of 
Americans lost their jobs. In 1933, in response to the Depression, 
President Roosevelt established the Civilian Conservation Corps (CCC). 
To this day, the CCC is still considered one of the most successful 
programs in American history. It provided work and vocational training 
for 3.5 million unemployed single young men while conserving the 
country's natural resources and building its infrastructure. By some 
estimates, the men of the CCC planted as many as 3 billion trees, 
protected 40 million acres of farmland from erosion, built 47,000 
bridges, drained 248,000 acres of swamp land, replanted almost a 
million acres of grazing land, built 125,000 miles of roads, fought 
fires, and created 800 state parks and 52,000 acres of campgrounds. At 
the same time, the CCC provided hope and support to both the young men 
and their families.
    It is time for a new CCC focused on creating the green economy. 
Youth in the United States are facing an employment crisis. According 
to the Center for Labor Market Studies (CLMS) at Northeastern 
University, the employment rate for teens is at its lowest rate in more 
than 60 years--with only 32.8 percent of all teens and only 22.7 
percent of black teens in the workforce. Further, of the 1.2 million 
jobs that were lost last year, approximately 60 percent were held by 
workers under the age of 25. Not only are these young people not 
working, they are not attending school either. Even before this 
recession, one out of every three ninth graders failed to graduate from 
high school in four years and more than half of all young people of 
color from low-income communities drop out entirely. Currently, nearly 
4 million young people, ages 18 to 24--roughly 15 percent of all young 
adults--are neither in school nor working. Tragically, too many of 
these young people will wind up in prison or dead.
    We have a solution. Like Roosevelt, we simply need to put the 
pieces together with a unifying, mobilizing call for national service 
to join the urgent effort to curb global warming and help build a green 
economy, supported by adequate funds to ramp up models that have proven 
their effectiveness and develop new ones where necessary. The call must 
also ask that we connect environmental work with the proven, but 
overlooked, ability of national service programs to play a unique role 
in building job readiness, particularly in building pathways to 
prosperity for poor people and communities. The Clean Energy Service 
Corps, the national service component of the CEC, will leverage the 
energy-saving efforts of public agencies; galvanize communities; and 
successfully apply technical skills, project management expertise, and 
the power of service to make a difference in energy use and the impact 
of fossil fuels on our environment, while enabling young men and women 
to produce valued and visible change in communities, gain skills 
relevant to the growing green economy, advance educationally, and 
become responsible and engaged workers and citizens.
    Unlike Roosevelt, however, we do not have to start from scratch. We 
already have a model and a network from which to work. Modern day 
Service and Conservation Corps have an established and proven record of 
providing educational and economic opportunities to disadvantaged and 
disconnected young people through energy and conservation related 
service.
A Modern Day CCC
    With support from AmeriCorps and other federal, state, and local 
funding sources, as well as public and private sector partners, the 
nation's 136 Service and Conservation Corps operate in 46 states and 
serve 26,000 young people every year. Fifty-one percent of these young 
men and women are people of color, 53 percent come from families living 
below the poverty line, and 60 percent do not have a high school 
diploma. In terms of service ranging from four to 24 months, these 
young people serve in cities, suburbs, and rural areas performing 
energy audits and retrofits, weatherizing homes, creating community 
gardens and green spaces, running recycling programs, building trails, 
planting trees, removing invasive species, reducing hazardous fuels, 
and fighting wildfires.
    Serving in teams, Corpsmembers learn how to solve problems, take 
responsibility, and take pride in a job well done--all foundational 
workforce competencies. In return for their efforts, Corpsmembers 
receive guidance from adult leaders who serve as mentors and role 
models. They have access to a wide range of supportive services, such 
as child care, transportation, and counseling. They also have 
opportunities to further their education and earn money for college or 
additional training.
    To advance educational progress, many Corps have created their own 
charter schools, either in partnership with public schools or on their 
own. Many grant diplomas as well as prepare Corpsmembers for the GED. 
Many also have strong relationships with community colleges.
    Through intentionally designed service projects, Corps provide 
training in a wide range of job skills, many of which lead to employer-
recognized certifications, including weatherization certification 
(which can be national), OSHA certification (a 30-hour course), power 
tools (including operations and maintenance), welding, skilled trades 
apprenticeship readiness training certificate, hazardous materials 
handling, plumbing, commercial drivers' licenses, and other operators' 
licenses (e.g. forklifts). Many of these certifications can lead to 
green jobs--jobs in energy efficiency retrofitting and wind turbine 
production, for example, look a lot like traditional construction and 
manufacturing jobs, and the early training and certification paths are 
similar.
    Overall, Corps raise the quality of workforce readiness, increase 
educational gains, and nurture sustained, intentional engagement with 
the community. Service enables Corpsmembers who have gotten off track 
to reverse former patterns of behavior, not only to find new values, 
but to be accountable for living those values. They create visible and 
valued contributions. They identify and solve public problems.
    Corps witness a transformation in the young people they serve, 
especially those that have been left behind by other initiatives. What 
they need is a real opportunity: someone who will challenge them and 
support them. Where that has happened, the results are significant. 
Here are just a few examples of how Corps across the country are 
improving lives, communities, and the environment.
Examples
    Members of the Montana Conservation Corps, as part of a state-wide 
governor's initiative, Warm Hearts Warm Homes Montana, have weatherized 
and retrofit more than 4,000 homes in low-income communities and 
reservations across the state, significantly reducing energy costs for 
low-income home owners and renters by installing inexpensive 
improvements, such as window kits, hot water heater blankets, weather 
strips, and energy-efficient light bulbs. As you know, 40 percent of 
our energy costs come from energy use in buildings. This is hands-on 
work that requires a major mobilization.
    In Denver, Colorado, members of the Mile High Youth Corps, 
approximately 50 percent of whom are high school dropouts, perform 
energy audits and retrofits that produce $110 in annual utility savings 
for low-income home owners. In just one year, Corpsmembers saved over 
16 million gallons of water, over one million kilowatt-hours of energy 
consumption, and created a life cycle air pollution reduction of over 6 
million pounds of carbon monoxide--the equivalent of removing 540 cars 
from the road for a year. Many of these Corpsmembers, having obtained 
their GED during their term of service, will be placed in positions 
with local utility agencies.
    In Freemont, Ohio, the WSOS Quilter Civilian Conservation Corps is 
housed in a Community Action Agency. Leveraging additional resources 
from the community, Corpsmembers learn weatherization skills on the 
job. This training, which is complemented by relevant college 
coursework, leads to nationally recognized certification. WSOS 
graduates have been deployed to other CAAs throughout the state to help 
meet the needs of other under-resourced rural communities.
    In Madison, Wisconsin, Operation Fresh Start, which runs a Civic 
Justice Corps model that serves formerly incarcerated and other court-
involved youth, builds energy efficient low-income housing that meets 
or exceeds Wisconsin energy standards buy up to 25 percent. By 
installing high quality insulation and energy efficient appliances, 
Operation Fresh Start Corpsmembers enable low-income residents to save 
on their energy bills year round.
    In my own home town of Oakland, California, Civicorps, which is 
also a Civic Justice Corps model, works in partnership with the Mayor's 
office, the Department of Human Services, local law enforcement, and a 
local Sustainable Business Alliance, to reintroduce non-violent 
juvenile offenders into the community through a variety of green 
service projects that enable Corpsmembers to gain skills and employment 
opportunities with green employers. Civicorps uses service projects as 
field work for science, math, and English classes--and as experiences 
that, reflected on, enable Corpsmembers to see themselves as valued 
contributors to the common good. To date, the majority of Civicorps 
Corpsmembers have obtained their GED and gained exposure to and funding 
for postsecondary education. A large number have received 
apprenticeships or employment with partner businesses. Overall, 
Civicorps boasts an impressive eight percent recidivism rate in a 
county where the overall recidivism rate is nearly 80 percent.
The Case for Expansion
    Just in case the above examples failed to convince you, the CEC 
makes good economic sense. According to a cost-benefit analysis 
conducted by Oak Ridge National Laboratory, every dollar invested in 
weatherization produces $3.71, of which $1.83 is energy-related 
benefits and $1.88 is non-energy-related. The National Consumer Law 
Center reports that energy efficiency benefits low-income households 
through reduced housing loss and abandonment, reduced loss of service 
due to terminations, improved property values and reduced health 
effects. Not to mention the savings and benefits of having a skilled, 
competitive workforce as opposed to large populations of out-of-school, 
out-of-work young adults.
    Despite having weatherized more than 5.3 million homes, much work 
remains to be done. Oak Ridge National Laboratory found that only 16 
percent of households eligible for the Weatherization Assistance 
Program have been served. Altogether, more than 27 million homes are 
currently eligible for assistance, of which 10 to 15 million are good 
candidates for weatherization.
Conclusion
    We are going to need many hands to build a new, green workforce. 
Not only can the nation's Service and Conservation Corps help to meet 
this need, but in doing so they can change the lives of disconnected 
young people and the communities in which they live. For low-income, 
low-skilled young people, the emerging green economy offers pathways 
out of poverty. Corps, with their emphasis on learning and growing 
through service projects that meet community needs, provide an ideal 
setting for that journey.
    Last Congress, you had the foresight to include a Clean Energy 
Service Corps in the GIVE Act. Even before the economy took a downward 
turn, the Energy Conservation Corps would have enabled Service and 
Conservation Corps and other non-profit organizations to serve 
thousands of additional young people. Given the current economic crisis 
and the need for a new green economy, the Clean Energy Service Corps is 
even more critical than it was just last year.
    By providing an environment in which young men and women make 
meaningful, tangible, and lasting contributions to their communities, 
experience success, develop positive leadership skills and move toward 
a lifetime of service to their communities and the nation, the ECC will 
play a role like that of the CCC of the 1930's: it will instill hope 
and love of country in a new generation of young Americans.
    I hope that it is your intention to, once again, include a Clean 
Energy Service Corps in your forthcoming bill and I hope that you will 
continue to view service as a strategy for solving all kinds of 
challenges that face our young people, our communities, and our nation.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    We are going to recess here. We have three votes. And then 
we will come back, and Sgt. Major, we will begin with you.
    In the meantime, Mr. Harris, you see if Mr. Jones is worth 
doing a demo with or not. Okay? [Laughter.]
    And then we will get back to you. We are looking for the 
results when we get back.
    Mr. Jones. I need you, brother! [Laughter.]
    [Recess.]
    Chairman Miller. The committee will come back to order.
    Look at that, James. You get the big microphone and go 
silent.
    Thank you for putting up with the inconvenience of the 
votes that we had, but that is sort of regular order around the 
Congress.
    Questions were being asked by my colleagues. The leading 
question was, James, how come you have all those notes but you 
never used them? You just spoke like you had it all down pat. 
They wanted to know if you are giving lessons. Maybe later you 
can help them out with their floor speeches. [Laughter.]
    Mr. Harris. Well, it is easy for me to speak on something 
that I am very passionate about. And, you know, it has been 
ongoing for like these past 3 years now, and it has been having 
a dramatic change just on my life, period. So, you know, it 
just flows out.
    Chairman Miller. There you go. Thank you.
    Sgt. Major, welcome to the committee. And thank you for 
being with us.

  STATEMENT OF KENNETH O. PRESTON, SERGEANT MAJOR OF THE U.S. 
                              ARMY

    SMA Preston. Chairman Miller, Representative McKeon, sir, 
great to see you. Other representatives and committee members, 
thanks very much. It is an honor for me, personally, to be 
here, a farm boy from the mountains of western Maryland.
    But, sir, as, chairman, you mentioned in your opening 
statement a quote from President Kennedy from his inaugural 
address on the 20th of January, 1961: ``Ask not what your 
country can do for you, but ask what you can do for your 
country.'' And it is our responsibility as Americans to 
volunteer our time and effort to make our nation and our local 
communities better places to live and thrive. And this holds 
true from a global perspective, as America is a member of the 
global community and serves to ultimately have a positive 
impact here at home.
    Today we are focusing on national service, which is often 
defined as volunteering one's efforts to a cause greater than 
oneself. This past July, we celebrated the 35th anniversary of 
the all-volunteer force. Today, the Army has more than 247,000 
soldiers forward deployed in 80 countries around the world. We 
have more than 135,000 soldiers currently deployed in support 
of Operation Iraqi Freedom and Operation Enduring Freedom. In 
addition, there are more than 50,000 National Guard and 28,000 
Army Reserve soldiers mobilized today, serving all around the 
world in those 80 countries. And they are also assisting here 
with homeland security and community needs at home.
    The Army's mission is to fight and win our nation's wars. 
The Army's capabilities provide the nation with support across 
the full spectrum of conflict. And this full spectrum spans 
from general war to stability and civil support operations to 
humanitarian relief. And, of course, humanitarian relief 
includes responding to emergencies and natural disasters like 
Hurricane Katrina and most recently the severe storm damage in 
Kentucky.
    Careers in the Army consist of more than infantry soldiers 
and tank commanders in Iraq and Afghanistan. We offer 28 career 
management fields containing 221 different military 
occupational specialties, and these specialties range from 
general construction, veterinarian, diver, to multimedia 
illustrator.
    In 2008, we recruited approximately 170,000 young men and 
women across all three components of the active, Guard and 
Reserve. The active Army recruited 80,000 of those soldiers, 
the National Guard 62,000, and the Army Reserve more than 
26,000. Army retention programs are also a success story as the 
Army continues to retain our very best soldiers. In 2008, we 
exceeded our retention goals in the active component by 14 
percent and 11 percent in the Army Reserve. The National Guard 
intentionally finished the year at 93 percent of their 
retention mission to maintain their authorized end strength 
cap. The first 3 months of 2009 have been the most successful 
retention period in Army retention history.
    These incredible accomplishments, while fighting the global 
war on terror, are directly attributed to the hard work of our 
recruiters, all the leaders in our units and organizations that 
support this Congress and support the Nation.
    Throughout history, volunteers played an integral role in 
the life of soldiers and their families. In the early years of 
our country, volunteers mended uniforms, cared for the sick and 
wounded, and comforted families of the fallen soldiers. Today 
our volunteers are found throughout the military community. 
Soldiers, civilians, retirees, spouses and youth provide 
services in schools, hospitals, sports fields and in many 
organizations and offices across the country.
    Through their dedicated service, volunteers transform 
military installations into communities. Each military 
community has an Army volunteer corps coordinator who is 
responsible for volunteer activities in and around their area. 
Army Community Service is one of many installation 
organizations that have a volunteer program. Volunteers come to 
us from both the active and reserve component. Now, this common 
bond between these volunteers is the desire to meet the needs 
of our Army community. The Army Community Service has more than 
10,000 volunteers who contribute more than 1 million hours of 
service every year.
    I am proud also that this year we will celebrate 2009 as 
the Year of the Noncommissioned Officer. The three objectives 
behind the Year of the Noncommissioned Officer is to recognize 
the leadership, professionalism, commitment, courage and 
dedication of our noncommissioned officers. The Noncommissioned 
Officer Corps is the reason behind our success on the 
battlefield today and why other armies around the world aspire 
to be like us.
    And second, we want to inform the American people and 
members of Congress and our government of the roles and 
responsibilities and quality service of our NCO Corps.
    And third, to enhance our Noncommissioned Officer Corps' 
education, comprehensive fitness, leadership manage and 
recognize their pride of service.
    Mr. Chairman and committee members, thank you. And I look 
forward to your questions.
    [The statement of SMA Preston follows:]

 Prepared Statement of Kenneth O. Preston, Sergeant Major of the U.S. 
                                  Army

    Chairman Miller, committee members, thank you for the opportunity 
to sit before you today and discuss National Service.
    President John F. Kennedy said during his January 20, 1961 
Inaugural Address ``ask not what your country can do for you; ask what 
you can do for your country.'' It is our responsibility as Americans to 
volunteer our time and efforts towards making both the Nation and our 
local communities better places to live and thrive. This holds true 
from a global perspective as America is a member of the global 
community and are efforts that ultimately have a positive impact here 
at home. Today we are focusing on national service which is often 
defined as volunteering one's time and efforts to a cause greater than 
one's self. This past July we celebrated the 35th anniversary of our 
All-volunteer force.
    Today, the Army has more than 247,000 Soldiers forward deployed to 
80 countries around the world. We have more than 135,600 Soldiers 
currently deployed in support of Operation Iraqi Freedom and Operation 
Enduring Freedom. In addition, there are 51,000 of our National Guard 
and 28,500 Reserve Soldiers mobilized today, serving all around the 
world and assisting with Homeland Security.
    The Army's mission is to fight and win our Nation's wars. The 
Army's capabilities provide the Nation with support across the full 
spectrum of conflict. This full spectrum includes general war to 
stability and civil operations to humanitarian relief. This is more 
than combat missions in Iraq and Afghanistan. Full spectrum includes 
border patrol along the Mexican border to weather disasters in New 
Orleans and Kentucky.
    Careers in the Army are more than the infantry Soldier and tank 
commander in Iraq and Afghanistan. We offer 28 Career Management Fields 
with 221 Military Occupational Specialties. These specialties range 
from general construction, veterinarian to diver and multimedia 
illustrator.
    In FY08, we recruited 169,859 young men and women across all three 
components--Active, Guard and Reserve. The active Army recruited over 
80,000, the National Guard 62,000 and the Reserve over 26,000 Soldiers. 
Army retention programs are also a success story as the Army continues 
to retain Soldiers at tremendously high levels. In 2008, we exceeded 
our retentions goals in the active component by 14 percent and 11 
percent in the Army Reserve. The National Guard intentionally finished 
the year at 93 percent to maintain their authorized end strength cap. 
The first 3 months of FY09 have been the most successful retention 
period in Army Retention history.
    These incredible accomplishments, while fighting the Global War on 
Terror, are directly attributed to the hard work of our recruiters, the 
support of our Army leaders, elected officials, and the support of the 
Nation.
    Throughout history, volunteers played an integral role in the life 
of Soldiers and their Families. In the early years of our country 
volunteers mended uniforms, cared for the sick and wounded, and 
comforted Families of fallen Soldiers. Today our volunteers are found 
throughout the military community. Soldiers, civilians, retirees, 
spouses and youth provide services in schools, in hospitals, on sports 
fields, and in many other organizations and offices. Through their 
dedicated service, volunteers transform military installations into 
communities. Each military community has an Army Volunteer Corps 
Coordinator (AVCC) who is responsible for volunteer activities in and 
around their area. Army Community Service is one of many installation 
organizations that has a volunteer program. They come to us from both 
the active and reserve components. The common bond of these volunteers 
is the desire to help meet the needs of Army community members. Their 
desire is to assist ACS in its Mission of ``Self-Help, Service and 
Stability.'' The ACS has more than 10,000 volunteers who contribute 
approximately 1 million hours of service.
    I am proud that this year we will celebrate 2009 as the Year of the 
Non-Commissioned Officer Corps. During this year, we will recognize the 
leadership, professionalism, commitment, courage and dedication of the 
NCO Corps. Recently GEN Casey, Chief of Staff, Army stated he believed 
the NCO Corps was the glue holding our Army together. The NCO Corps is 
the reason behind our success on the battlefield today and is the 
standard to which other nations' armies aspire. NCOs provide invaluable 
service and have made great sacrifices in the line of service. NCOs 
continually prove their dedication to service and a willingness to make 
great sacrifices on behalf of our Nation. We also seek to inform the 
American People of the roles, responsibilities and the quality of 
service of our NCO Corps. NCOs provide inspiration and motivation. NCOs 
are outstanding role models for all Americans and are exemplary 
subjects that are truly representative of the Nation's moral character 
and strength for all men, women and children. During the course of this 
year we will continue to enhance our NCO Corps' education, fitness, 
leadership development, and pride in service through the implementation 
of programs and policies that support the sustainment and growth of our 
NCO Corps.
    Mr. Chairmen, committee members, thank you. I look forward to your 
questions.
                                 ______
                                 
    Chairman Miller. Mr. Capara?

STATEMENT OF DAVID L. CAPRARA, DIRECTOR AND NONRESIDENT FELLOW, 
 BROOKINGS INITIATIVE ON INTERNATIONAL VOLUNTEERING AND SERVICE

    Mr. Caprara. Thank you, Mr. Chairman and Ranking Member 
McKeon.
    I am pleased to speak about the powerful work of faith-
based and community volunteers with you today and the powerful 
impacts they are having on many of our nation's pressing social 
issues.
    I applaud President Obama for his signal leadership in 
making the cause of service a centerpiece of his presidency--
indeed, President Bush on the state of the union in 2002, 
President Clinton, President Bush 41 before him. We heard a 
little bit about the founding earlier today. Certainly 
Tocqueville noted this to be in our DAA [sic]. We talked about 
Ben Franklin--certainly he was our first faith-based proponent. 
And, in fact, according to Walter Isaacson's book was carried 
in his funeral by all the faith traditions for his promoting 
the social glue that became our great country.
    During my tenure at the Corporation for National and 
Community Service, I was tasked with leveling the playing field 
and advancing innovative models across VISTA, AmeriCorps, 
Senior Corps, and Learn and Serve. We teamed up also with HHS 
in leveraging these volunteers with family strengthening 
economic asset programs like People for People, ``the praying 
running back's'' program in Philadelphia, the Latino Pastoral 
Action Council in the Bronx. The Potters House of Bishop T.D. 
Jakes led a massive nationwide effort promoting fatherhood and 
ex-offender reentry.
    Cambridge researchers have noted that children of prisoners 
are far more likely to become involved in crime than kids from 
other backgrounds. The Amachi Initiative, founded by former 
Philadelphia Mayor Wilson Goode, provides vulnerable youth with 
caring and adult role mentors who guide them in success through 
life. In fact, 3,000 congregations have enrolled as partners, 
mentoring more than 100,000 children of prisoners nationwide, 
supported by AmeriCorps member who recruit volunteers in 
congregational mentoring hubs. In 2008 alone, Senior Corps 
volunteers served nearly 14,000 children of prisoners with 
loving role models.
    Bob Woodson, the founder of the Center for Neighborhood 
Enterprise, in his landmark book The Triumphs of Joseph notes 
that faith-based grassroots organizations are closest to 
problems in the communities. They are often off the radar, but 
they are the most trusted often by residents in times of need. 
The center reaches out to former gang members who have been 
transformed by their faith in God in providing life skills and 
access to jobs, connecting them with other adjudicated youths 
as ambassadors for peace in high-crime schools.
    Baylor University researchers recently documented the 
impact of the center's violence-free zone programs in six 
Milwaukee public schools. Violent incidents were reduced 32 
percent, along with decreased suspension rates and increased 
student GPAs. Significant decreases in gang violence were also 
achieved and documented in violence-free zones in Baltimore, 
Dallas, Atlanta, Richmond and Washington.
    The administration and private foundations should advance 
such partnerships, leveraging effective grassroots efforts with 
the volunteer power at CNCS and programs in education, labor 
and justice.
    Our nation's volunteers have also made headway in promoting 
global solutions. Freedom from Terror noted a marked drop in 
violent terrorism and a dramatic increase in positive views 
toward the U.S. in Muslim countries like Indonesia, Bangladesh 
and Pakistan following our volunteer responses after the 
tsunami and earthquake disasters. The International 
Volunteering Project at Brookings has achieved solid gains in 
its goal of doubling a cohort of 50,000 to 100,000 volunteers 
through the Building Bridges Coalition, which consists of 180 
NGOs, faith-based groups, universities led by American and 
corporations.
    The Brookings team, with the leadership of our colleague 
here today, Senator Wofford, and John Bridgeland crafted a 
design for a Global Service Fellowship that would empower tens 
of thousands of new international volunteers with modest 
stipends redeemable through NGOs and faith-based entities. The 
Global Service Fellowship bill has attracted broad bipartisan 
support. Supported by Betty McCollum here in the House and Mark 
Kirk in the Senate, the measure passed unanimously right after 
the Service Nation Summit that Time hosted the next week, with 
the leadership of Russ Feingold, who will soon reintroduce the 
measure with republican co-sponsorship in the Senate.
    Along with congressional action on Global Service 
Fellowships, the Service Nation global service platform calls 
for doubling the Peace Corps and authorizing Volunteers for 
Prosperity at USAID to leverage private sector support. My 
recent travels in hot spots of Israel and Palestine, Kenya, 
Philippines, Brazil and other nations supported ongoing Global 
Peace Festival initiatives and service initiatives on every 
continent.
    I witnessed first hand, Mr. Chairman, the tremendous power 
of inter-faith and volunteering partnerships to heal conflicts 
across tribal and religious divides. Over 120 global leaders 
recently gathered to call for a new global service alliance to 
build a vital link between volunteering and development to 
impact peacebuilding.
    And in conclusion, faith-based and community volunteers, 
Mr. Chairman, are effective allies in our nation's response to 
critical challenges at home and abroad. We have just scratched 
the surface of the incredible wisdom and transformative hope 
embodied in today's Josephs like Mr. James Harris we heard from 
today from Usher's foundation.
    I hope we can rally across party lines with this president 
to connect these groups in a grand domestic and global force 
for good as proven allies in the fight against poverty and 
disease, environmental degradation, and global conflict. Such 
an alliance would show our world the full potential of 
America's best diplomats--our volunteers.
    Thank you.
    [The statement of Mr. Caprara follows:]

   Prepared Statement of David L. Caprara, Director and Nonresident 
 Fellow, Brookings Initiative on International Volunteering and Service

    Chairman Miller and Ranking Member McKeon, Members of the Education 
and Labor Committee: Thank you for the opportunity to provide testimony 
at today's hearing on the vital topic of our national call to service. 
I am pleased to speak about the powerful work of volunteers serving 
through faith-based and community organizations and the positive 
impacts they are having on our nation's most challenging social issues. 
I commend you for recognizing the potential of these dedicated 
volunteers.
    I also applaud President Barack Obama for his signal leadership in 
making the cause of service a centerpiece of his presidency. His call 
to a new generation to give national and even global leadership in 
service to others has the potential to become a defining legacy of this 
Administration.
    Expanding partnerships with neighborhood mediating institutions has 
proven to be an effective path in addressing many of the social 
difficulties we face as a country.
    During my service at the Corporation for National and Community 
Service, I was tasked with leveling the playing field and advancing 
innovative service programs--VISTA, AmeriCorps, Senior Corps, and Learn 
and Serve America. I often considered the insightful words of one of my 
mentors, Robert Woodson, founder and president of the Center for 
Neighborhood Enterprise, and author of the landmark book, Triumphs of 
Joseph.
    Woodson, who has been frequently called to testify about grassroots 
community remedies by the Congress and our nation's governors, told me 
that faith-based initiatives are not about promoting a particular 
faith, but rather, advancing secular outcomes that faith-based and 
other grassroots groups are uniquely positioned to effect. He notes 
that not only are these groups generally the closest to the problems in 
a community, they are the ones most often trusted by residents, 
particularly in times of need like our present economic crisis.
    Volunteer efforts brought to bear by faith-based groups, since 
Tocqueville first noted our nation's founding charitable traditions and 
social capital in the 19th century, have been immensely important 
throughout America history. In fact, according to Bureau of Labor 
Statistics data, more Americans volunteer through religious groups than 
any other kind of organization.
    A CNCS Research and Policy Development report, entitled ``Volunteer 
Management Capacity in America's Charities and Congregations,'' found 
that volunteers can boost both the quality of services and delivery 
capabilities in charities and congregations while reducing costs.
    We could cite many examples of successful faith-based models, such 
as the Latino Pastoral Action Center of Rev. Ray Rivera in the Bronx, 
which has made great use of AmeriCorps volunteers in building community 
capacity. Southeast Idaho's Retired and Senior Volunteer Initiative and 
the Columbus, Ohio, based Economic and Community Development Institute 
serving Muslim refugees from Somalia and Ethiopia, as well as Jewish 
and Pentecostal Christian refugees from the former Soviet Union, 
provide other models.
    At the Corporation, we teamed up with HHS' Administration for 
Children and Families in leveraging volunteer expertise with family 
strengthening, fatherhood and healthy marriage programs, and economic 
asset development with groups like People for People founded by Rev. 
Herb Lusk, the former Philadelphia Eagles ``praying running back.'' 
Bishop Joseph Henderson converted a former juvenile detention facility 
into the Bragg Hill Family Life Center in Fredericksburg, Virginia, 
supported by Doris Buffett's Sunshine Lady Foundation. The Potters 
House of Bishop TD Jakes in Dallas launched a nationwide initiative 
promoting responsible fatherhood and ex-offender reentry with faith-
based volunteers and new media technology.
Amachi Mentoring Children of Prisoners Initiative
    I would like to touch more deeply upon two innovative program 
models--one, the Amachi Initiative, which utilizes CNCS volunteer 
resources, and another, the Violence Free Zone Initiative engaging 
former gang members and other forms of indigenous community volunteer 
capacity.
    Researchers at the Cambridge University Institute of Criminology 
have shown that children of prisoners are far more likely to become 
involved in crime in the future than children from other backgrounds. 
The Amachi program, founded by former Philadelphia Mayor Rev. Wilson 
Goode, provides this vulnerable cohort of young people with caring 
adult mentors who help guide them to success in life, avoiding a 
pathway to incarceration which statistics show would too often be the 
case without such intervention.
    Amachi, whose name in Africa means, ``who knows what God will bring 
forth from this child,'' began training faith-based organizations to 
play a key role in scaling up the program after its founding in 
Philadelphia in 2003, with the support of Big Brothers Big Sisters and 
area congregations. To date the initiative has enrolled 3,000 
congregations as partners mentoring more than 100,000 children across 
America.
    The Amachi mentoring model, supported by AmeriCorps members who 
assist recruitment of community volunteers and form congregational 
mentoring hubs, has proven so effective that it was adopted by the 
Department of Health and Human Services as the basis of the federal 
Mentoring Children of Prisoners program. At the Corporation for 
National and Community Service, it was our great honor to support Dr. 
Goode in helping to replicate the Amachi success with the help of 
Senior Corps, AmeriCorps, and VISTA volunteers nationwide. We then 
expanded that effective approach with a new initiative of VISTA and DOJ 
programs that built mentoring and support hubs with faith-based and 
community volunteers who share their love and practical transition 
support for ex-offenders coming home.
Violence-free zones
    Robert Woodson's Center for Neighborhood Enterprise has developed 
one of the most effective gang intervention programs in our country, by 
tapping indigenous community healing agents and volunteers from within 
crime-ridden neighborhoods. The Center reaches out to former gang 
members who have been transformed by faith, and connects them with 
other adjudicated and at-risk youths in high-crime schools and 
community centers.
    In 1997, CNE stepped in after Darryl Hall, a twelve-year-old 
District boy, was shot and killed in a senseless gang war between the 
``Circle'' and ``Avenue'' crews and others that had already left fifty 
young people dead in South East Washington, DC. In partnership with the 
Alliance of Concerned Men, many who were ex-offenders themselves, CNE 
negotiated a truce and helped the young people involved gain skills and 
find jobs as an alternative to drug-dealing and crime. Those young 
people were then engaged as ambassadors of peace in their 
neighborhoods, motivating other youths toward positive attitudes and 
behaviors. Ten years later, crew-related homicides have been eliminated 
in the area since the intervention began.
    Today CNE is expanding the reach of Violence Free Zones to cities 
across the country including Chicago, where a major spike in gang 
violence threatens to cut short the lives of our young people and their 
fellow neighborhood residents.
    Baylor University researchers, who Woodson recently cited in 
testimony before the House Judiciary Committee, documented the impact 
of the VFZ intervention model in six Milwaukee public schools where 
violent incidents were reduced by 32%. Suspension rates were also 
dramatically reduced, and student grade point averages rose compared to 
the control sites.
    Dramatic decreases of violent incidents where CNE grassroots 
leaders intervened were also reported in Baltimore, Dallas, Atlanta, 
and Washington, D.C.
    Congress, the Administration, and private foundations would be well 
served to advance dynamic linkages and partnerships with such effective 
grassroots, faith-based programs together with the volunteer power of 
the Corporation for National and Community Service and programs at the 
Departments of Education, Labor, and Justice. Attorney General Eric 
Holder could be a natural leader for such a cross-sector effort. He has 
been a strong proponent of Violence Free Zones since their inception 
during his prior tenure at Justice.
    I believe these initiatives represent ``low-hanging fruit'' if the 
new White House Council on Faith-Based and Community Partnerships wants 
to scale up such results-oriented models with expanded private sector 
and public support.
Hurricane Katrina response
    In addition to their unique quality of being deeply embedded in 
communities, faith-based organizations are usually much more nimble and 
innovative than governmental bureaucratic bodies. Take for instance the 
response to Hurricane Katrina. Groups like Lutheran Disaster Response, 
Islamic Relief USA, and the Points of Light and Interfaith Works Faith 
and Service Institute, directed by Rev. Mark Farr and Eric Schwarz, 
were able to mobilize quickly. They and countless other faith-based 
groups galvanized congregations, synagogues and mosques into action 
with donations and volunteer ``boots on the ground'' to help families 
recover, while FEMA and other agencies famously struggled to respond.
International volunteering
    Our nations' volunteers have also made great headway in promoting 
global solutions. Freedom from Terror polls have noted a marked drop in 
support for violent terrorism and a dramatic increase in positive views 
toward the United States in populous Muslim nations like Indonesia, 
Bangladesh and Pakistan following our national and volunteer responses 
after the tsunami and earthquake disasters, that were sustained beyond 
the initial period of aid.
    According to a BLS assessment report by researchers with Washington 
University's Center for Social Development, approximately 52% of global 
volunteers from America said their main volunteering organization was a 
religious one.
    The International Volunteering Project at the Brookings 
Institution, launched at a forum with General Colin Powell nearly three 
years ago, has achieved solid gains in doubling a cohort from 50,000 to 
100,000 international volunteers through the Building Bridges 
Coalition, comprised of more than 180 US-based international service 
NGOs, faith-based groups, universities and corporations.
    Together with the national policy leadership of John Bridgeland and 
Senator Harris Wofford, who is here as an expert witness today, the 
Brookings volunteering team crafted a design for a new Global Service 
Fellowship initiative that would empower tens of thousands of new 
international service volunteers supported with modest stipends that 
could be redeemed by NGO and faith-based entities registered with the 
State Department. Global Service Fellowship legislation patterned after 
our research has attracted broad bipartisan support, with leadership 
from Senators Russ Feingold, Chris Dodd, and Norm Coleman in the Senate 
last year, and Representatives Betty McCollum, Mark Kirk and many 
others in the House and Senate. Our team also helped to craft the 
Service Nation global volunteering platform, which calls for doubling 
the Peace Corps, enacting Global Service Fellowships, and authorizing 
Volunteers for Prosperity at US AID.
    In the past year my travels have included visits to hot spots of 
Israel and Palestine, Kenya, the Philippines, Brazil and other nations 
supporting ongoing Global Peace Festival initiatives on each continent. 
Through these efforts I have witnessed first hand the tremendous power 
of interfaith partnerships and volunteering to heal conflicts across 
tribal and religious divides. Upcoming Global Peace Festival 
initiatives in Mindanao, Jakarta, and other cities including an 
International Young Leaders Summit in Nairobi next month hold 
particular promise. Over 120 global leaders, NGOs and faith-based 
groups have supported the call for a new Global Service Alliance in 
these endeavors. Such a ``global peace corps'' will build a vital link 
between volunteering and global development to impact peacebuilding 
outcomes.
Closing
    In conclusion, faith-based and community volunteers are not only 
effective but they are an essential element of our nation's response to 
critical challenges we face at home and abroad. Now is the time for our 
national leaders and the private sector to tap into their full 
potential in light of our massive challenges ahead.
    We have only begun to scratch the surface of the incredible wisdom 
and resources of transformative hope, embodied in today's grassroots 
``Josephs.''
    I hope we can rally across party lines with this President to 
connect and support these groups in a force for good, as proven allies 
in the fight against poverty and disease, gang violence, environmental 
degradation and global conflict and disasters. Such an alliance would 
show the world the full potential of America's best diplomats, our 
volunteers.
    I would like to close by quoting Dr. King's words that my former 
mentor and boss Jack Kemp, the distinguished former House member and 
President Bush 41's HUD Secretary, often cited in his testimony:
    ``I don't know what the future holds, but I know who holds the 
future.''
    Thank you very much.
                                 ______
                                 
    Chairman Miller. Ms. Hamilton?

     STATEMENT OF LISA HAMILTON, PRESIDENT, UPS FOUNDATION

    Ms. Hamilton. Chairman Miller, Ranking Member McKeon and 
committee members, thank you so much for convening this hearing 
on the importance of volunteerism and for giving UPS the 
opportunity to share its views.
    During my 12 years with UPS, I have had the honor of 
working 4 years in the company's charitable arm, The UPS 
Foundation, and have served as its president for the last 2 
years, responsible for leading philanthropic and volunteer 
efforts worldwide.
    Community service has always been a part of UPS's 102-year 
history. That is due, in part, to our unique view of the world. 
Each day, thousands of UPS drivers deliver in every community 
across this nation. We see the hungry, the homeless and the 
hopeless. And because we see firsthand the challenges facing 
our society, we want to make a difference.
    While the UPS Foundation donated more than $46 million to 
charitable organizations in 2008, we believe that our 
employees' volunteerism is an equally important contribution to 
local communities and nonprofit agencies.
    The UPS Foundation's efforts and strategy are employee 
driven. UPSers are encouraged to provide time, leadership and 
expertise to organizations working to meet critical needs. Each 
year, they give back in record numbers, enabling the UPS 
Foundation to tie half of its grantmaking to our employees' 
volunteer effort.
    In 2008, UPS employees, retirees and their families 
volunteered nearly 1.3 million hours, largely through the 
company's employee volunteer program Neighbor to Neighbor. And 
during UPS's global volunteer month, our opportunity each 
October for UPSers around the world to focus on volunteer 
engagement, 16,000 employees in 55 countries volunteered 
140,000 hours.
    In the U.S., UPS developed its future leaders through a 
unique volunteer opportunity called the UPS Community 
Internship Program. Through CIP, as we call it, UPS managers 
leave their jobs and homes for a month of service in one of 
four sites run by nonprofits in New York, Chattanooga, 
Tennessee, McAllen, Texas and San Francisco.
    Since the program began more than 40 years ago, 1,300 UPS 
managers--including me--have participated in CIP. I can tell 
you that it is a life-changing experience. And participants 
return to their jobs with more compassion for their fellow 
employees, more knowledge of our operating environment, and a 
greater commitment to serve others.
    UPS also takes the time each year to recognize outstanding 
volunteer effort. Each year, one employee, essentially our 
volunteer of the year, receives the Jim Casey Community Service 
Award named after our founder.
    This year's award recipient, Richard Koch, has volunteered 
over 60 hours per month for the past 12 years as a coach and 
tournament director for Special Olympics, Virginia. Rich 
represents the best in UPS employee volunteers through his 
sincere commitment to serve others.
    UPS believes this spirit of volunteerism shouldn't stop at 
our company's doors. For over 10 years, one of the key areas 
for our foundation has been volunteerism. To date, we have 
donated more than $15 million in an effort to help nonprofit 
organizations do a better job of recruiting, managing, and 
retaining volunteers.
    For example, our funding helped the Peace Corps recruit 
former volunteers back into short-term assignments through the 
Peace Corps Encore program. UPS led a disaster volunteerism 
initiative and partnership with the Points of Light Foundation 
and leading disaster response agencies. And we funded the 
development and implementation of the National Park 
Foundation's Volunteer Senior Ranger Corps.
    Targeting our grantmaking to help nonprofits better manage 
the precious gift of volunteer resources helps build their 
capacity. As demands on nonprofit services continue to increase 
while nonprofit budgets decrease, organizations will 
increasingly rely on volunteers. We must work together to 
ensure that all Americans have pathways to service to meet this 
challenge. Companies are competitive in a lot of ways, but this 
is one area where we can work together for the common good.
    Thank you again for the opportunity to share UPS's views, 
and we look forward to answering any questions you have.
    [The statement of Ms. Hamilton follows:]

     Prepared Statement of Lisa Hamilton, President, UPS Foundation

    Statement of Lisa Hamilton President, The UPS Foundation Before the 
Committee on Education and Labor U.S. House of Representatives February 
25, 2009
    Chairman Miller, Ranking Member McKeon, and committee members: 
Thank you for your focus in this hearing on the importance of 
volunteerism and for the opportunity for UPS to present its views.
    From decades of active involvement, UPS knows the value of 
volunteerism in communities across our country, and we also know its 
importance to our company as a core value and key element of our 
culture.
    In my 13 years with UPS, I have had two opportunities to work 
within the company's charitable arm, The UPS Foundation, and have 
served as its President for the past two years, responsible for leading 
the company's philanthropic efforts.
    While The UPS Foundation distributed more than $46 million to 
charitable organizations in 2007, today I'll share with you examples of 
why we believe that effective volunteerism is just as, and perhaps, 
more important to the long-term sustainability of our nation's 
communities and nonprofit organizations.
    UPS is the nation's second-largest private employer, with more than 
355,000 U.S. employees, and more than 425,000 employees worldwide. 
Community service has always been a part of UPS's nearly 102-year 
legacy. That is due, in part, to the unique vantage point we have of 
the community.
    Each day, UPS people go to doorsteps in every community across our 
nation. We see the hungry, the homeless and the hopeless. We see the 
ills impacting our society--whether it's the need for aid in recovery 
from a natural disaster or the need for revitalization in a struggling 
neighborhood--and we want to make a difference.
    Our employees drive our volunteer engagement strategy. They play a 
pivotal role in identifying the needs of the community. As a result, 
approximately half of The UPS Foundation's grants are tied to our 
employees' volunteer efforts.
    UPS employees are encouraged to volunteer, to give to local 
charities, and to provide leadership and lend their expertise to 
organizations that work to address the challenges in communities in the 
U.S. and around the world.
    In 2008, UPS employees and their families volunteered nearly 1.3 
million hours--most of which was accomplished through the company's 
employee volunteer program, Neighbor to Neighbor.
    My basic point is that this is not hard to do. Companies large and 
small, and their employees, can benefit enormously with just a modest 
effort.
    Here in the U.S., UPS takes a unique approach to community service 
and volunteerism as part of its leadership development initiatives. The 
UPS Community Internship Program takes UPS managers from their jobs for 
a ``month of service'' in one of four sites run by non-profits in New 
York, Chattanooga, Tennessee, McAllen, Texas, as well as in your home 
state Chairman Miller and Ranking Member McKeon, in San Francisco.
    In San Francisco, the Community Internship Program is based at the 
Donaldina Cameron House and our employees participate in activities 
ranging from helping to cook and serve food at Glide Memorial Methodist 
Church, to volunteering at Self-Help for the Elderly, which provides 
social services and meals to more than 25,000 seniors in San Francisco, 
San Mateo, Santa Clara and Alameda counties.
    More than 1,360 UPS managers have left their families to 
participate in CIP since its inception in 1968. Several years ago we 
had our first international participant, and we are now considering the 
development of an international site for the program.
    We also take the time to recognize the volunteer efforts of our 
employees. Since 1995, UPS has awarded the Jim Casey Community Service 
Award, which is named after our founder and serves as our Volunteer of 
the Year Award.
    Just yesterday, I had the pleasure of presenting this year's award 
to Richard Koch, an employee in Richmond, Virginia, who has done 
phenomenal work as a volunteer coach and tournament director for the 
area's Special Olympics.
    Richard represents the best in UPS employee volunteers--a 
commitment to community and a desire to help by leveraging one's 
expertise to the benefit of those in need.
    He embodies our belief that that through volunteer leadership we 
can make a difference.
    This spirit of volunteerism should not stop at our nation's shores. 
Companies and their employees are as much the face of America as our 
official aid organizations and our military hospital ships.
    UPS employees abroad volunteer through the company's Global 
Volunteer initiative. Celebrated in October, Global Volunteer Month 
provides a formal opportunity for UPS employees outside of the United 
States to get involved in local communities. Last October, 140,000 
volunteer hours were contributed by nearly 16,000 UPS employees in 55 
countries.
    Global Volunteer Month activities have included refurbishing 
hospitals in China, clearing farm land and planting trees in the 
Philippines, and organizing a distribution network for 700 schools in 
Berlin.
    We know we are a better company and that our employees live richer 
lives as a result of these volunteer efforts.
    Whether it is through our employees who volunteer in their 
communities, our Loaned Executives who contribute expertise to 
organizations such as United Way or FEMA, or the UPS managers who 
provide guidance to CARE in an effort to improve that organization's 
supply chain and distribution capabilities, the spirit of engaged and 
effective volunteerism flows through UPS and into communities around 
the world.
    I began my testimony by asserting that community service is 
entrenched in the UPS culture as a core value.
    For us, volunteerism is not a once-a-year or once-a-month effort. 
It is people involved in their communities every day, all year long.
    Companies are competitive in many ways, but this is one area where 
we can work together for the common good.
    Thank you again for the opportunity today to share UPS's views on 
this important matter. I look forward to the opportunity to answer any 
questions you may have.
                                 ______
                                 
    Chairman Miller. Well, thank you very much.
    And thank you to all of the panelists for, again, giving us 
your time and your expertise.
    It was the--you know, we have had, in the last session we 
had great bipartisan support for this legislation. And it was 
the intent of this hearing this morning to kick off and renew 
that support for this legislation in this session of the 
Congress following the directions of the new president last 
night and to get this legislation to the floor in the House and 
the Senate and on to the president's desk. And I think that, 
clearly, you have certainly met and exceeded my expectations.
    We also wanted to make sure that the committee saw, and 
America saw, that the sprit of volunteerism, of service, spans 
American society--through the corporate world, through the 
faith community, the military, entrepreneurial, philanthropic, 
and the intellectual community that understand that this is 
really at the core of America.
    This is fundamental to our being. This isn't something that 
we are trying to add on. This isn't something that we 
discovered. This has been, as Richard pointed out, with us from 
the beginning of this nation. And if you close your eyes and 
you think about all the times in your lives that volunteers 
have showed up and crossed your path, it is a remarkable 
intersection of America where people come to assist others--to 
teach, to mentor, to encourage, to support. It is a remarkable 
story.
    What we are trying to do, as I think as the president said 
last night, is to see whether or not the government can be a 
catalyst. The government can help to support the network, and 
it can provide some incentives for the private sector and 
individuals to participate. And those incentives very often are 
key to making the connection that James showed us here that 
started out with an opportunity to participate, and then to 
connect to an educational opportunity, and then the vision of 
the whole other world that was out there.
    And to the extent to which this legislation and the federal 
government in partnership with states and local governments and 
with the private sector we can provide that, that is a very 
exciting idea. Again, not new in America. I have been in 
Congress long enough to have gone through all of the 
ideological fights on various components of what now we 
consider the National Corporation for Service to America. And I 
think those are behind us. We now recognize that this is really 
a great engagement taking place in our nation. And so I want to 
thank you.
    We are going to be interrupted with another vote. I do not 
want to hold you before we leave for that vote.
    I would just like to go back for a moment, Mr. Harris, 
because we had a chance to talk before the hearing. And we were 
talking about what it meant to be given the opportunity, and 
you had to make up your mind whether you were going to take 
advantage of that opportunity. But when the opportunity was 
presented to you, and you were discussing with me a little bit 
that absent that opportunity life was just going to go on on 
another track. And I just wondered if you might share some of 
that with the committee.
    Mr. Harris. Right, because like I said, it is a lot of kids 
who have the ability to do the work and actually follow 
through, but without an opportunity to showcase our abilities, 
we will be stuck into situations that we are in right now.
    For instance, like how he was saying where you can't just 
introduce me to something new and then not have any follow-
through with that. If I am in a situation to where I have to 
sell drugs to provide for myself or to provide for my family, 
you can educate me and tell me why it is not right to sell 
drugs. You can tell me that you can't mix negative with 
positive, you can't bring joy and happiness into your life by 
causing the destruction of another person's life, and I can 
understand that. But then, how am I going to make money?
    You must introduce--you have got to show me both elements. 
You have got to tell me why this isn't right, and also provide 
another avenue to where I can continually to provide for myself 
in a positive way. If you don't have both of those elements, 
the person is going to be stuck in the situation that they are 
in. Because when it all comes down to it, it is really all 
about providing for oneself and providing for their family. And 
then they are going to be thinking about what is best for the 
next person.
    But if you show both of those things, they will be thinking 
about themselves, the people around them and everybody else, so 
you will be motivated to do what is the greater good.
    Chairman Miller. Thank you.
    Dr. Dorsey and Mr. Jones, I have a question. You already 
answered, Mr. Jones, but I am going to----
    [Laughter.]
    So I am just going to state my question for the record, and 
then we will follow up. And I just want to know, want to make 
sure, that we are doing everything we can--and this is also for 
UPS--to encourage, you know, entrepreneurs, to encourage the 
private sector in these partnerships.
    You don't have to answer that now, because I am going to 
get back to you in detail as we go through the final runs on 
the legislation. But I just, you know, I just find out that 
there is great leverage to be had out there.
    And I am stunned sometimes--we have done some things on 
higher education with the private sector--how much leverage 
there is with a little bit of participation by the government. 
And I am very interested in maximizing that. And you both have 
been very involved in that, both as generating entrepreneurs 
for that purpose and also recipient and the next generation, 
Mr. Jones. So I just want to pose that question, and I will 
leave it because I don't want to take up my time.
    So I want to turn to Mr. Thompson for any comments that he 
may have, and we will just----
    Okay.
    Mr. Jones. I would be wrong if I didn't correct the record, 
though, as we do wrap up. We have an extraordinary number of 
opportunities to grow people like Mr. Harris, and the Corps 
Network is frankly the number one entity in America right now 
that has brought together programs like the one Mr. Harris has 
benefited from, got them together. They are in a strong 
position, the Corps Network, and it is led by Sally Prouty. And 
I just wanted to make sure the record reflects that 
organization's contribution.
    Chairman Miller. Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman.
    Well, this is such an important subject, near and dear to 
my heart as a volunteer in my community is where I came from, 
and in the fact that volunteers make such a difference, whether 
we are talking about our communities or our all-volunteer 
military force we are so proud of, our churches, our business 
communities and our schools.
    And, actually, just within this past weekend in my 
districts, the students, just the students at Penn State 
University, put on the largest dance marathon in the country. 
They raised almost $7.5 million in one day for pediatric cancer 
research. That is volunteerism. That is making a difference. It 
just touches the lives of families, of kids. It will support 
research for pediatric cancer.
    So, just one question in the--because I know that we are 
time--and this is for Mr. Caprara. In reviewing your written 
testimony, I see that you have worked with many different types 
of faith-based organizations. Can you discuss why it is so 
important to have faith-based organizations involved in efforts 
to promote volunteerism?
    Mr. Caprara. My mentor Bob Woodson once said, it is not 
about the particular faith of the groups but the secular 
outcomes that they bring. Teen Challenge, for example, had 
three successive federal evaluations including NIDA showing an 
86 percent success rate.
    Truth be known, this whole faith-based revolutionary idea 
in the 1990s came when they were going to be shut down in the 
state of Texas because they didn't have the right--you know, 
you had former drug addicts, former felons that, you know, were 
transformed by their faith. They didn't have PhDs to handle 
methadone. They didn't need methadone. The violence-free zone--
I quoted Baylor University's data showing a 32 percent drop in 
violence. So it is about these outcomes.
    And I think them being close to the problem, this so-called 
neighborhood mediating institutions of grassroots volunteers, 
faith-based groups, churches, schools--these are the fabric 
that make our country great. So I think it is their closeness 
to the problem and, as I said with Joseph, like our witness 
here today, their innovativeness to go outside the box along 
with other social entrepreneurs.
    But it is the results, I think, that really speak volumes.
    Mr. Thompson. Thank you, sir.
    Given the need to vote, I will yield my time.
    Chairman Miller. Which I appreciate, Mr. Thompson.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you for being here. You have all spoken 
so eloquently. And I think we all have some connection to this. 
This is why it should be such an important bipartisan effort, 
and I certainly hope it is going to proceed in that direction.
    I wanted to just mention very briefly the Mentoring for All 
Act was actually put across the desk this morning--it is 1165. 
And that will try and bring that infrastructure that we know 
exists in state and localities but more on the national level 
and try and connect up.
    What I was wondering from you, and perhaps you can respond 
later in some way, is how you see that as really critical, 
because sometimes I think people believe that this does just 
happen on its own. We know that that is not true. But there is 
kind of a push back sometimes of doing this on a greater scale 
at the national level. Help me to understand how you see that 
as helping to create the 5 or 6 million that we still need in 
this country. What is it that that kind of support would bring, 
and, perhaps, what is it that inhibits people from mentoring? 
Sometimes it is just a matter of good information, not knowing 
where to go. Do you see that kind of structure as being helpful 
in this regard?
    You can answer, or if the chairman has to go to other 
folks, I just wanted to throw that out there----
    Chairman Miller. We are going to take the answer off the 
air here.
    Mrs. Davis. Okay. We can take your----
    Chairman Miller. Because I have to go to Mr. Kucinich, and 
then----
    Mrs. Davis [continuing]. Concerns about that. Thank you.
    Chairman Miller [continuing]. And then I think Mrs. 
McCarthy is on her way back, and she would like to ask--the 
subcommittee chair would like to ask----
    Mr. Kucinich?
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    In listening and reading Usher's comments, when people act 
on a desire to change the world to make it a better place, that 
is the genesis of causing other people to become involved. And 
when you discover the power to help, as Mr. Harris speaks 
about, you then inspire to community service.
    Now, Mr. Stengel provided a structure, which I think is 
worth looking at. And the bill that Mr. Wofford is working on 
is important.
    Now, one quick question to Mr. Jones. You know, you and I 
have talked for years about a Works Green Administration. Can 
you see a fit between environmental movement, a structure of a 
Works Green Administration to help transform not only a 
volunteerism for environmental but also to fit into a national 
policy that would restore manufacturing?
    Mr. Jones. With chair's----
    Chairman Miller. Yes.
    Mr. Jones [continuing]. The chair's permission.
    Yes, we do. And we actually have a proposal called the 
Clean Energy Corps that I think you would be very interested 
in, sir. It directly aligns service opportunities with job 
training with actual jobs that can advance the agenda that the 
president has put forward in terms of repowering, retrofitting 
America.
    And it draws on the--as was pointed out by Mr. Stengel 
earlier--it draws on the proud tradition of the Civilian 
Conservation Corps. The last time we got in this much trouble, 
both with the environment and with our economy, FDR had the 
wisdom to put forward a Civilian Conservation Corps, which took 
the people who most needed work and let them do the work that 
most needed to be done.
    We have a proposal I would love to get your feedback on, 
sir.
    Mr. Kucinich. Thank you very much.
    Chairman Miller. We--I would just say, or the chair would 
just say--that we expect that to be a component. It is in the 
current legislation as we hope to be able to report it from 
committee.
    I am waiting for Mrs. McCarthy to come back. Her 
subcommittee is handling this legislation. I know she has 
questions.
    Mr. Jones. Well, I----
    Chairman Miller. Are you going to run the filibuster on me?
    Mr. Jones. I didn't--I didn't----
    Chairman Miller. Watch this, James. This guy is going to 
start talking and never going to stop. Watch. [Laughter.]
    Mr. Jones. I will shock you, sir, and limit it to two 
sentences, just to the congresswoman's point.
    I think people need help to help. I think that there is a 
tremendous amount of goodwill in this country, but there are 
also people who don't know how to connect with certain 
communities. I think people need help to be able to help. And I 
would love to support your effort to make that more possible 
and more available.
    Chairman Miller. And one of the great things I have 
discovered in this is the unusual turns you get sometimes. Mr. 
Jones, you are familiar with Richmond BUILD----
    Mr. Jones. Yes.
    Chairman Miller [continuing]. And where we have taken not 
just young people but older young people who have come to us 
who have been living on the streets, who have had, you know, 
tough lives, and to prepare them for the solar energy and wind 
energy industries.
    And sort of the interesting surprise was that Chevron is 
now taking them to be welders inside of the refinery in my 
hometown. And so all of a sudden they are working at a pay 
scale with a skill that they never imagined. And it is really 
quite a remarkable--so now we have to backfield to get people 
back to the original intent, which was welding in the solar 
energy industries. But you just see--I go back to Mr. Harris: 
If you can connect somebody with that opportunity, you will 
never cease to be amazed at what may come out of that connect.
    And Usher, we want to thank you so much. Again, to see 
someone who has taken their good fortune and passed it along to 
the next generation is very, very exciting for all of us. You 
are one of many in America who have made a wonderful decision 
about helping other people and providing that opportunity. Not 
everybody will take advantage of it. But the trick is to have 
that opportunity there for those who will make that decision. 
And I really want to thank you for taking your time.
    And I know we are going to have a chance to meet up in a 
more formal fashion--this is pretty formal, though, right? 
[Laughter.]
    I have got to quit screwing around with the microphone.
    Harris, thank you so much. You bring so much history to 
this and so much commitment. And hopefully we will have this on 
a regular order fast track--full participation of all members 
of the Congress, because I think the president touched a nerve 
last night.
    With that, I would like to turn the chair over to Carol 
McCarthy, who has just been a workhorse on this issue for the 
last many years to get us to this point.
    Thank you again for your participation.
    Mrs. McCarthy. Thank you. And it has been a pleasure 
listening to all the testimony.
    I want to say thank you to Ms. Hamilton for the work that 
UPS does. I have been working with UPS probably for 13 years in 
my district, working within the community on special projects. 
And they have always stepped up to the plate, and they were 
terrific.
    And, you know, my experience with the faith base, 
especially after Katrina and going down there and seeing how 
our faith-based organizations were there and setting everything 
up and how the organization was there. I am talking about 
almost 8 months after Katrina, they were still there working. 
And as far as I know, they are continuing their work there. So 
I want to thank.
    And certainly Sgt. Preston, thank you again for serving our 
country. And thank you for bringing in all the volunteers. You 
have a very unique opportunity to bring these volunteers in 
from so many parts of the country and even overseas. So I thank 
you for that.
    The question that I wanted to ask, and I wanted to talk to 
Mr. Harris about this: You know, when we heard your testimony 
and how you got involved in Usher's New Look program, it opened 
up doors for you. And I know that you are going to be looking 
and opening up at your hometown an organization working with 
Mr. Raymond's organization to do the work that you have been 
doing.
    I guess the question would be, how do you plan on going 
about it? How are you going to start it? How are you going to 
get involved when you go back home to open up that program?
    Mr. Harris. First, you got to get hands on. So I decided to 
hook up with an organization back in my hometown, Cross-Lines. 
It is a charitable organization. They do various things for the 
community as far as they do, not a food banking, but they do 
have somewhat of a soup kitchen. They also, like, during 
schools times--at, like, at JC Harmon High School, during prom 
times they actually offered and provided prom dresses and suits 
for those students who couldn't afford to get one. So they do 
various works.
    So in the sense of serving, and serving in my community, I 
have to get hands on first with another organization that is 
already established. Meanwhile, I am talking to my peers and 
talking to other adults in my community, addressing issues that 
are directly affecting us in our community, and then also 
coming up to plans of action amongst each other and building my 
own proposals. So one day when I do have everything drawn up 
into the way I want it in my vision, I can actually reach out 
for funding to actually see my plan actually working all the 
way through, you know.
    And just from watching my mentor and my friend Usher and 
seeing how he started with the one thing and went to another 
thing, and to see his vision all the way out. I know that 
things won't come as quickly as I want them to, but I know with 
hard work that I can accomplish anything. And, like I said, I 
learned that from New Look, and I learned that from Mr. Usher.
    Mrs. McCarthy. Well, I thank you for your work.
    And, my goodness, nobody else is here. So I have it on my 
own.
    One of the things that, you know, I just want to say is 
that we have been working on the reauthorization of this for 
quite awhile. And I think that we have an absolutely wonderful 
opportunity at this particular point, especially with--
unfortunately with--the economy the way it is, let us make some 
lemonade out of a lemon.
    And we are going to have an awful lot of students that are 
graduating from college; they are not going to find a job. It 
is a wonderful time to reach out to them to be able to do 
service in this country and get them involved. Because we know 
that if we get involved in volunteerism, the younger we can get 
them, they stay that way for years and years and years. So it 
is really important that we do that reach out.
    I know my grade schools and certainly my high schools are 
very involved in volunteerism. The country--and let us face it, 
our country is a great, giving country. And it truly is. Maybe 
people don't notice it, but I have noticed after every disaster 
that we have had in my 13 years here, whether it was 
hurricanes, whether it was fires, you know, just terrible times 
around the country, people are there to volunteer. They want to 
give.
    And our mission is to get the word out on how to do this. 
Our mission is to help you and all your organizations to get 
out there and do the work that needs to be done. We are 
Americans, and certainly we have a lot of work to do, but I 
know we can work together.
    I already asked my question.
    Hey, Rob, do you want to ask? Mr. Andrews?
    Mr. Andrews. Thank you, Madam Chairwoman.
    I would like to thank the panel. I have had the privilege 
of serving on this committee for quite a few years. And I think 
this is one of the best panels I have ever heard, I have to 
tell you, in the incredible diversity of opinion and 
experience.
    Senator Wofford and I have worked together on so many 
things over the years. And Harris, I will always associate you 
with national service in the most positive way possible.
    Mr. Stengel, my subscription is paid up on Time--pun 
intended. And we appreciate what you have done in the world of 
journalism.
    And really, all the witnesses are just phenomenal, just 
phenomenal.
    I would like to start with Usher--can I call you Usher? Is 
that okay? I will tell you that my daughters, who are 16 and 14 
now, finally believe I have done something of meaning in my 
career here because we are having this conversation today.
    I am very impressed by the foundation that you have 
created. I think it is incredibly selfless and forward 
thinking. Are your earnings the only source of contribution to 
that foundation, or have others chipped in and helped?
    Mr. Raymond. No, we have other donors. And I share the same 
sentiment in this being a true purpose over platform. The 
platform of what I have done for so many years----
    Mr. Andrews. Right.
    Mr. Raymond [continuing]. Gave me this opportunity to be 
here, more than anything just to simply be of a service to 
underserved communities and give them the opportunity to know 
that there is opportunity there for them, to track them 
throughout their careers and give them that opportunity first 
and foremost by putting them in the position through the 
internship programs.
    This year we did something with NHL where we allowed our 
kids to go in and apply what they learned. When they come up 
with plans, we definitely entertain partnering as well as 
sending them off in the right direction.
    For me, like I said, this is purpose over platform. For 
what I have done that makes your daughter enjoy what I do----
    Mr. Andrews. Too much. [Laughter.]
    Mr. Raymond [continuing]. It gives me an opportunity to 
have money to invest in my foundation. But, you know, to have 
proper bills passed and proper funds to, you know, implement 
this practice into charter schools or wherever, you know, I do 
it from my heart, and----
    Mr. Andrews. Obviously.
    Mr. Raymond [continuing]. This is the result.
    Mr. Andrews. Well, you know, the reason I asked this 
question is I think one of the things we can look at in this 
legislation is trying to attract more private sector 
contributions to the work that you have already done, to use 
this bill as a magnet as you have with your abilities to 
attract more money.
    And, Ms. Dorsey--is it Dr. Dorsey or Ms. Dorsey? Well, I 
wonder what you think of the idea that I was thinking about 
when I heard your testimony, was the possibility of 
incentivizing banks that have taken TARP money to have some 
sort of obligation to participate would be social venture 
capital funds that you are talking about.
    Has the banking industry been active in helping to do the 
things that you have done, or not as much as it should be?
    Dr. Dorsey. Well, I won't--I don't know the specifics of 
TARP to speak to that.
    But I can tell you what you see from corporate banks today. 
Today we are very involved, obviously, with CRA legislation 
and----
    Mr. Andrews. Right.
    Dr. Dorsey [continuing]. How to give back through the 
Community Reinvestment Act. I also do think that corporate 
philanthropy, including in the banking industry, is an 
incredibly important engine for philanthropy. Every year, 
Americans give about $300 billion, and the vast majority of 
that comes from individuals like us, about 83 percent. About 4-
5 percent comes from corporations. And I think we will probably 
see some decrease of that in this economic downturn.
    Mr. Andrews. I am sure.
    Dr. Dorsey. But there is a way to incentive that. I think--
--
    Mr. Andrews. Yes. Here is what I am wondering: You 
mentioned the Community Reinvestment Act, which is Mr. Frank's 
jurisdiction, the Banking Committee. But he is a big believer 
in what we are doing, I know.
    Banks under the CRA get credit, they get points toward 
their obligations. And I am wondering if a contribution to a 
social venture capital fund gets them a credit or not. If it 
doesn't, we should make sure it does, because it would be a way 
of making sure that some of that bailout money that some of us 
are wondering a little bit about could be invested in a broader 
and more significant purpose.
    Mr. Harris, let me say to you. I have heard hundreds of 
witnesses testify before this committee over the years. You 
have been one of the absolute best.
    Mr. Harris. Thank you.
    Mr. Andrews. I was most impressed by the fact that you 
had----
    [Applause.]
    Mr. Andrews. Wasn't he fun? It was great.
    I was impressed by the fact you had those note cards in 
your hand but didn't look at them because what you said came 
from here and not from the note cards.
    This may shock you, but members of this committee--most 
especially me--know very little about how to effectively 
communicate with someone your age and from your circumstances. 
I know that is hard to believe, but that is the case.
    If we wanted to get the word out about the virtues of 
national service and how it has affected you and your life, 
what do you think the most effective way is for us to do that?
    Mr. Harris. The most effective way to reach youth is, 
first, you must identify: Where are the youth during school?
    Most of the time during the day, we are at school. So if 
you can incorporate the actual importance of serving and maybe 
some actual service into the curriculum, that is key. Appealing 
to their emotion and getting those kids involved, because 
junior high and high school is a critical point in any person's 
life.
    Mr. Andrews. Sure is.
    Mr. Harris. Even though it might be a young age, that, 
really, your decisions from there on up will depict the person 
that you are going to become.
    Mr. Andrews. Mr. Harris, you may have just written a part 
of the next No Child Left Behind Act. I see our----
    [Applause.]
    One of the things the committee will consider this year 
under Chairman Miller's leadership is the rewriting of that 
law.
    And, yes, I think you have come up with a great idea, which 
is to somehow incentivize or require schools to put into their 
curriculum the idea of teaching subjects through service.
    And I again want to thank the whole panel. I think this is 
great. And I feel an incredible sense of optimism from two 
things this week. One is from all of you and the great job you 
have done today.
    But the second is hearing the president last night say very 
explicitly that he is ready to sign the Hatch-Kennedy 
legislation. And, you know, we feel very enthusiastic under 
Chairman Miller's leadership of moving that forward and getting 
it on the president's desk. And maybe we can have a concert to 
celebrate the signing of the bill.
    Mr. Raymond. You are hosting it.
    [Laughter.]
    Mr. Andrews. Oh, no.
    [Laughter.]
    Mrs. McCarthy. I would like to call on our colleague, Mr. 
Loebsack.
    Mr. Loebsack. Thank you, Madam Chair.
    It is great to be here. I am sorry I had to miss the 
testimony of three of you while I was doing other things and 
voting and what have you. But this is a great panel. I would 
concur with what Mr. Andrews just said. I am really impressed. 
Not only did Mr. Harris not read his notes, but Mr. Jones 
didn't either, and I--well, I went--I know you don't want to 
hear this--I went to the back room, and I was talking to my 
staffer wondering when you are going to run for this office at 
some point. But at any rate, this is really fantastic, and I 
really appreciate everything everyone said.
    I am glad to be here today, and I want to thank all of you 
for your testimony.
    Volunteerism is really important to me for a lot of 
reasons, not the least of which is because in the second 
district of Iowa in June we had dramatic floods that some of 
you probably saw on CNN and other cable news networks. A lot of 
volunteers came not only from other parts of Iowa to Cedar 
Rapids, Iowa City, the little town of Oakville--they are still 
coming to this little town of Oakville that was totally 
inundated where the Iowa River comes together with the 
Mississippi River, a tiny town just wiped out. And there are 
still volunteers there today from all over America. So 
AmeriCorps and VISTA came, faith-based organizations, it was 
absolutely fantastic.
    I think that really demonstrated the American spirit, and I 
want to thank Senator Wofford for all the work you have been 
doing on this issue for so many years.
    Also, I should just say--and be a little careful, since the 
camera is on I suppose--but I have learned in my 2 years here 
that politicians are usually, if not always, very fearful of 
YouTube, you know that might catch you at the wrong time, the 
wrong place, saying the wrong thing. But I am on YouTube with 
AmeriCorps VISTA volunteers mucking out a basement in Cedar 
Rapids Iowa, and I am really proud that I was able to do that 
with those folks. Great work.
    I do want to ask Mr. Jones, I know that you are--you know, 
I really commend what you are interested in as far as greening 
America. Mr. Kildee here and our chair, Mr. Miller, have 
allowed me to take a leadership role in the Green Schools 
legislation. Unfortunately, it didn't get into the stimulus 
bill, although people still may be able to use some of the 
funding for Green School modernization.
    I think that you have at least some familiarity with 
Kirkwood Community College, which is in my district, too, 
because the leadership there when I was back mentioned your 
book. I was wondering if you could elaborate a little bit on 
how you see community colleges in particular fitting into all 
of this, especially on the job training front.
    Mr. Jones. Well, first of all, Mr. Harris is an example of 
the fact that the very next step in his journey was a community 
college.
    Many of us think about the 4-year college experience as 
sort of the penultimate. But the reality is many of the people 
from our communities, the first opportunity they are going to 
have is going to be community college.
    And we have an incredible infrastructure already in this 
country to do the things that need to get done. We already have 
the vocational schools in place--you don't have to go build 
them. We can green them, but we don't have to build them. We 
have the community colleges. We have the infrastructure. We 
have the teachers who are willing to teach. We have people who 
are willing to learn.
    What we haven't done is, as I have said, taken things that 
already work, grab them, grow them, and green them. And the 
community colleges are going to be in the leadership. They can 
turn fastest. They can actually change curriculum faster than 
the 4-year colleges. They are more accessible.
    But I will say this, it is a tragedy--at least in Oakland, 
where I am from--the accessibility even now for our community 
colleges is going down, down, down, as the scholarships go away 
and as the costs go up. And this is the worst time in the world 
to make it hard for young people to get a job, or to continue 
their education, or to go into service. We have got to do--
hopefully all three--but we can't pull the ladder of 
opportunity up on all three of those fronts.
    Mr. Loebsack. I am really happy that in stimulus bill that 
we just passed, the Recovery and Reinvestment Act, that we did 
increase the Pell Grant by $500, which I think is a good thing, 
obviously, especially for community college students.
    And I want to thank Senator Wofford. I think you were at 
Cornell College, where I taught for 24 years, with President 
Obama when he was Senator Obama where he gave, really, that 
landmark speech, I think, on volunteerism. And I want to thank 
you for being with him and going to Cornell College.
    And I do have one last question to ask all of you. I know I 
have very limited time here. I am from a rural state, but not 
all of my district is rural. It might surprise some of you.
    Mrs. McCarthy. Excuse me.
    Mr. Loebsack. Yes, ma'am.
    Mrs. McCarthy. If you would cease for a moment.
    I know that you have to leave. So we thank you very much as 
we continue this session.
    Mr. Raymond. You guys gotta carry on.
    [Laughter.]
    Mrs. McCarthy. Yes, people are getting nervous. They want 
you to leave.
    Mr. Loebsack. Thanks, Usher.
    Mrs. McCarthy. Thank you very much.
    Mr. Loebsack. Thank you.
    I want to ask everyone here if you might have any thoughts 
at all about how we increase volunteerism in rural areas in 
particular. Does anybody have any thoughts on that?
    Mr. Wofford. Make one point pertinent to that: The stimulus 
package effort is dealing with getting people to work.
    Roosevelt at a somewhat similar economic crisis faced 
hundreds of thousands of young people--rural young people and 
urban young people--out of work, out of school. And he insisted 
that the four key departments that put together the Civilian 
Conservation Corps have within 4 months a quarter of a million 
boys in the woods planting, ultimately, in the Civilian 
Conservation Corps 3 billion trees, all of the other things 
that the CCC members did.
    By 4 months, they had more than 300,000 young men in full-
time service in 1,600 camps. It was a big investment that paid 
off fantastically in the 3\1/2\ million CCC members.
    There are corps in this country now, more than 100, that 
are service and conservation corps and other forms of full-time 
service. At the other end of the spectrum from Teach for 
America or even most of the VISTAs, there are going to be 
rural, especially young people, and inner city young people 
having a very, very hard time getting a job and being out of 
work and out of school.
    And I think it is the moment in the quantum leap for full-
time service that is proposed by President Obama, to grow from 
75,000 AmeriCorps members to 250,000 that we look at that 
example of how in such a short period of time 300,000 and then 
it got to 500,000. Young people were transforming our public 
lands.
    And there is no bigger challenge, I think, to us than, out 
of history, than that first great wave of civilian national 
service, most of whom then graduated into the military national 
service of World War II.
    Mr. Loebsack. Well, thank you all.
    And I have run over my time. So thank you, Madam Chair.
    Mrs. McCarthy. I want to say once more, thank you for your 
participation in this hearing.
    You know, we have a lot of work ahead of us, obviously, 
with the economy the way it is, with the budget, which we will 
receive from the president tomorrow. But I heard that there is 
money in that budget for this particular program, so we are all 
happy about that. We don't know how much, though. It is always 
the details that we need to look at.
    So with that being said, I am going to close this hearing. 
Without objection, members will have 14 days to submit 
additional materials or questions for the hearing record.
    [Prepared statement of James P. Firman, submitted by Mr. 
Hinojosa, follows:]

    Prepared Statement of James P. Firman, Ed.D, President and CEO, 
                       National Council on Aging

    Thank you for this opportunity to submit these comments on behalf 
of the National Council on Aging regarding the importance of civic 
engagement in meeting critical economic needs.
    The unique power of volunteer service has contributed to the 
vitality of our nation since its birth. In the mid-nineteenth century, 
historian Alexis de Tocqueville noted the unique contributions of 
voluntary organizations as core strength of our young democracy. In the 
following two centuries, our Presidents have recognized that 
volunteering is one of America's greatest exports. President Obama 
participated in the first National Presidential Candidate Forum on 
Service last year, and agreed that developing an informed and engaged 
citizenry through expanded national and community service (both 
military and non military) is a fundamental building block of a strong 
democracy and nation.
    From our experience, we have learned that service has touched the 
lives of millions of Americans, both those serving and those served, 
young and old alike. It is the best of example of democracy in action, 
and instills the principle of citizenship as a continuing ingredient of 
successful life.
    Service is a significant and valuable force in life transitions, 
from youth to adulthood; from career to service, and from adulthood to 
later life. Service brings people together and promotes collaboration 
at all levels of society and builds bridges among seemingly disparate 
groups to improve the quality of life of people in our nation. People 
from diverse backgrounds and age groups working together through 
service can solve problems, learn by doing, and get great things done 
for America.
    When well planned and organized, civic engagement enables public 
and nonprofit service agencies to be more effective. Volunteerism 
leverages human resources to serve greater numbers of citizens who are 
vulnerable or living in poverty, and enhances problem-solving 
initiatives in education, public safety, the environment, and other 
human needs.
    Beginning in 2011 and continuing over the next 30 years, the 
largest cohort of citizens the nation has ever seen will turn 60. Their 
vast numbers combined with their longevity will increase demands on 
social services and health care systems, while record retirement rates 
will create job market shortfalls. However, unlike past societal 
challenges, embedded in the challenge itself is the solution. ``If 
society can tap [Baby Boomer] talents, employers will benefit, living 
standards will be higher, and the financing problems of Social Security 
and Medicare will be easier to solve.'' (Business Week, June 27, 2007)
    The current economic crisis highlights the importance of tapping 
the social capital of older adults. The talent, experience, and 
availability of rapidly growing numbers of adults 55+ can be mobilized 
to solve local problems in myriad ways. For example, there are several 
million young people who would benefit from adult mentoring, yet there 
are currently fewer than 500,000 mentors. Many informal caregivers of 
children with special needs and frail elderly desperately need some 
respite care. The growing legions of unemployed and underemployed also 
need experienced coaches to learn new skills to fill essential jobs in 
industries experiencing workforce shortages.
    The benefits of civic engagement extend to older Americans 
themselves as well as to their neighbors and communities. The mental 
and physical well being of older volunteers will be maintained and 
improved through purpose and meaningful activity. Youth involved in 
intergenerational mentoring programs have demonstrated improved grades, 
decreases in school absences and suspensions, and decreases in drug and 
alcohol abuse. Investments in civic engagement projects also contribute 
to a community's economy by mobilizing volunteers; Independent Sector 
currently estimates the value of volunteer time at $19.51 an hour.
    Research conducted by NCOA demonstrates that adults approaching 
retirement age are concerned about the future of the country and want 
to give back--but in new ways with more impact. Many of them will be 
interested in exploring service opportunities, but may need some 
incentive and encouragement to get involved. NCOA believes that our 
nation should adopt public policies that empower older adults to make a 
commitment to remain active citizens in their communities in ways that 
address critical human needs.
    To that end, NCOA strongly supports:
    <bullet> Section 417 of the Older Americans Act which authorizes 
appropriations for multigenerational and civic engagement initiatives;
    <bullet> Proposals, such as Silver Scholarships, to provide 
incentives for older Americans to volunteer their time, included in 
legislation re-introduced by Congressman Sestak this month, and in the 
GIVE Act introduced by Congresswoman McCarthy and the Encore Service 
Act introduced by Senator Dodd in the 110th Congress.
    Again, thank you for this opportunity to share the views of the 
National Council on Aging regarding civic engagement initiatives for 
older Americans and the difference such investments can make in our 
national economy and our local communities.
    The National Council on Aging is a non-profit service and advocacy 
organization headquartered in Washington, DC. NCOA is a national voice 
for older Americans--especially those who are vulnerable and 
disadvantaged--and the community organizations that serve them. It 
brings together non-profit organizations, businesses and government to 
develop creative solutions that improve the lives of all older adults. 
NCOA works with thousands of organizations across the country to help 
seniors find jobs and benefits, improve their health, live 
independently and remain active in their communities.
                                 ______
                                 
    [Prepared statement of Christopher P. Golden, submitted by 
Mr. Courtney, follows:]

Prepared Statement of Christopher P. Golden, Service Nation 100 ``Young 
                    Leaders,'' Co-Founder, myImpact

    Mr. Chairman and Members of the Committee, America finds itself at 
a critical crossroads. Every day brings more news that is further 
evidence of the systemic problems that our nation faces. The challenges 
that my generation, the Millennial Generation, is inheriting are 
profound and pronounced. As such, they require a committed response 
consistent with our country's greatest legacies and traditions. I am 
privileged to submit to the Committee today some personal thoughts on 
how national service can be a solution and how, through service, this 
generation is answering the call to renew America.
    In September 2008, I had the tremendous opportunity to attend the 
ServiceNation Summit in New York City as part of a group of 100 young 
leaders. The two-day event, planned to coincide with the anniversary of 
the September 11th terrorist attacks, was an unprecedented gathering of 
federal, state and local politicians, corporate and nonprofit leaders 
and advocates for service from all generations. If ever there was a 
moment for this movement to unite under a single charter, it was then, 
within the vision of the ServiceNation Declaration of Service.
    ``We believe there is no challenge that cannot be met with the 
energy, creativity and determination of the American people,'' the 
Declaration reads.
    It continues, ``We call on each other and leaders from all sectors 
of American life, private, public and non-profit to work together to 
create ample opportunities for citizens to serve their communities, 
their country, and the world.''
    A call to service, reenergized at the summit, has continued to echo 
across the nation. Today's committee hearing is evidence of the rising 
tide of voices coalescing around a common goal: to build a country 
where service is seen as a civic rite of passage for every willing and 
able young American. It is this ultimate vision that is commonly shared 
between my organization, myImpact, and the nearly 150 other 
organizations in the ServiceNation Coalition. We are encouraged by the 
signals from the Obama Administration and by the early actions of the 
new Congress. I join the hundreds of thousands of young people around 
the country who have made service a part of their daily lives, to 
encourage your continued leadership on this very important issue.
    The Millennial Generation must not be overlooked. We are a 
generation of diverse opinions and of strong passion. Coming of age at 
a difficult time, with a nation challenged and a world redefining 
itself, we are committed to civic participation and service and are 
volunteering at higher percentages than our parents did. The full 
impact of our generation's contribution, in energy and ideas, is just 
beginning to be realized.
    It is at this time, more than any other in our recent history, that 
we call on the Congress to recognize this growing effort and to provide 
the resources, both institutionally and fiscally, to ensure that if a 
young American steps forward wanting to serve they are not turned away. 
Further, we believe that service and education go hand-in-hand and 
believe strongly in the President's statement in his Address to 
Congress that, ``if you are willing to volunteer in your neighborhood 
or give back to your community or serve your country, we will make sure 
that you can afford a higher education.''
    This Congress faces many pressing issues, beginning with stemming 
the economic crisis, but through these challenges can come tremendous 
opportunity. On this issue, there are several important pieces of 
legislation, including the Kennedy/Hatch Serve America Act, the US 
Public Service Academy Act and the package of Service for All 
initiatives introduced by Connecticut Senator Christopher Dodd and 
Representative Rosa DeLauro that advance our common cause and move us 
closer to realizing our ultimate goal.
    In conclusion, I would like to thank the Committee for the 
opportunity to present these words as part of the record of this 
hearing, to Representative Courtney for his support, and especially for 
the Chairman's leadership on this issue.
                                 ______
                                 
    [Additional submission by Mr. Wofford follows:]


                                    Age for Change Network,
                                 Washington, DC, February 25, 2009.
Committee on Education and Labor,
House of Representatives, Washington, DC.
    Dear Committee Members: We the undersigned members of Age for 
Change Network represent organizations committed to strengthening 
service and civic engagement programs. Age for Change encourages people 
50+ to create and pursue opportunities to be dynamic advocates, 
committed volunteers, and valued workers in society. During the 
election campaign, many candidates and policy makers called upon people 
of all ages to get involved in shaping the future of their communities 
and our country. Now we write to ask you to help us start the shift 
from vision to reality.
    Our organizations and many more with like interests have been 
involved with the development and support of ideas and programs that 
will:
    <bullet> Expand opportunities for people to serve at every stage of 
life;
    <bullet> Encourage and guide public institutions and nonprofit 
organizations to implement the necessary organizational and structural 
changes that will significantly increase their effective use of 
retirees and boomers.
    <bullet> Motivate the public, particularly individuals 50+ to 
undertake life-long learning as a key to continued involvement in 
community and work activities and improved health and well-being.
    <bullet> Clear the way for paid work for older workers who want to 
or must continue working by amending discrimination and pension laws 
and instituting flexible work places.
    <bullet> Connect leaders, employers, and community organizations to 
create new opportunities, tap the potential of workers and volunteers 
50+, leverage scarce resources, and build infrastructure and momentum 
to support a nationwide call to service.
    Therefore, we write in support or your efforts and urge you to:
    <bullet> Support the Generations Invigorating Volunteerism and 
Education Act (GIVE Act--H.R. 5563) that includes programs to encourage 
boomers and older adults to volunteer. These programs offer a range of 
opportunities including: Next Chapter Grants to fund organizations such 
as community colleges and other nonprofits to serve as one-stop 
resources for finding paid or volunteer jobs that provide service to 
the community; Time Banking which would create local service exchanges 
where both parties are compensated with reciprocal amounts of volunteer 
service and no money changes hands; requirements that states develop 
comprehensive plans to tap the resources of boomers and older adults 
for volunteer and paid work; and Bilingual Volunteer Recruitment to 
enhance outreach for senior volunteer programs so that bilingual 
volunteers are recruited, expanding the reach of programs and services 
for which older Americans typically volunteer, including the Silver 
Scholars program.
    <bullet> Support expansion of the highly successful Senior Corps 
programs--RSVP, Foster Grandparent Program, and the Senior Companion 
Program.
    <bullet> Support the creation of additional programs to help ensure 
that low income Americans, including older adults, have opportunities 
to serve.
    <bullet> Support the innovative programs and current program 
expansions included in the Serve America Act (S.3487), including Senior 
Corps, introduced by Senators Kennedy and Hatch.
    <bullet> Support the creation of the programs included in the 
Encore Service Act introduced by Senator Dodd and Representative Rosa 
DeLauro, which also includes Silver Scholars program, as does 
Representative Sestak's legislation.
    As you have taken action to respond to the crisis of the economy by 
new efforts to invigorate the nation's physical infrastructure--roads, 
bridges, schools--we urge you to strengthen the nation's civic 
infrastructure. People of all ages, including those recently retired 
and those nearing retirement, are a resource waiting to be tapped.
    In order to maximize the opportunities of service for the rising 
wave of retirees, we offer the above agenda for legislation and 
regulatory action and for implementation on the ground in every 
community.
            Respectfully,
                                    Age for Change Network,
                          Community Experience Partnership,
                                           Experience Wave,
                                      Grantmakers In Aging,
                             Minnesota Vital Aging Network,
  National Academy on an Aging Society, The Gerontological 
                                        Society of America,
                                 National Council on Aging,
                                Portland Community College,
    The Council for Adult and Experiential Learning (CAEL),
                                       The OASIS Institute.

    For more information about the Age for Change Network, contact 
Sabrina Reilly, Age for Change Steering Committee member at 202-479-
6680 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a495b584853545b14485f535656437a5459555b1455485d14">[email&#160;protected]</a>
                                 ______
                                 
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
